                        SENSITIVE BUT UNCLASSIFIED



            United States Department of State
         and the Broadcasting Board of Governors
                Office of Inspector General




                             Inspection of

            Embassy Santo Domingo,
             Dominican Republic

              Report Number ISP-I-11-40A, May 2011




                                  IMPORTANT NOTICE

This is intended solely for the official use of the U.S. Department of State or the Broadcasting
Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside of the
Department of State or the Broadcasting Board of Governors, by them or by other agencies or
organizations, without prior authorization by the Inspector General. Public availability of the
document will be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

        Policy Implementation: whether policy goals and objectives are being effectively
          achieved; whether U.S. interests are being accurately and effectively represented; and
          whether all elements of an office or mission are being adequately coordinated.

        Resource Management: whether resources are being used and managed with
          maximum efficiency, effectiveness, and economy and whether financial transactions
          and accounts are properly conducted, maintained, and reported.

        Management Controls: whether the administration of activities and operations meets
          the requirements of applicable laws and regulations; whether internal management
          controls have been instituted to ensure quality of performance and reduce the
          likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
          whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                          SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




                                              iii
OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

                                        Table of Contents

Key Judgments                                                                                                   1
Context                                                                                                         3
Executive Direction                                                                                             5
   Country Team and Interagency Relations                                                                       5
   Mission Strategic and Resource Plan                                                                          5
   Attention to Security and Management Issues                                                                  5
   Support of Equal Employment Opportunity Program Objectives                                                   6
   Leadership                                                                                                   7
   Morale                                                                                                       7
   Public Diplomacy                                                                                             7
   Entry-Level-Officer Program                                                                                  8
   Contact Database                                                                                             8
Policy and Program Implementation                                                                               9
   Economic/Political Section                                                                                   9
   Narcotics Affairs Section                                                                                   11
   Consular Affairs                                                                                            13
   Public Diplomacy                                                                                            21
Resource Management                                                                                            25
Management Issues                                                                                              27
   Management Operations                                                                                       27
   Human Resources                                                                                             27
   Financial Management                                                                                        33
   General Services Office                                                                                     34
   Information Management and Information Security                                                             41
Quality of Life                                                                                                47
   Health Unit Operations                                                                                      47
   Community Liaison Office                                                                                    47
   American Embassy Recreation Association                                                                     47
Management Controls                                                                                            49
List of Recommendations                                                                                        51
Informal Recommendations                                                                                       57
Principal Officials                                                                                            61
Abbreviations                                                                                                  63




                                                          iv
            OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                             SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




                                               v
OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                 SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

   Key Judgments
         Embassy Santo Domingo is headed by a recently arrived noncareer Ambassador who is in the
          process of familiarizing himself with the numerous programs and operations conducted at
          this mid-sized embassy. In the foreign policy program management areas, he has been ably
          assisted by the deputy chief of mission (DCM).

         Policy and program implementation is effective, overall coordination is good, and
          interagency relations are cooperative.

         Mission leadership has not provided sufficient oversight of internal management support
          services. This report documents a number of long-standing deficiencies. The front office has
          the strategic responsibility for establishing a framework within which the embassy can deal
          with weaknesses in management and internal controls, and it must provide leadership support
          to, and exercise oversight over, the many internal embassy functions (e.g., management,
          consular, and security operations), as well as the foreign policy program areas.
(b) (5)




         Although embassy officials acknowledge the high-fraud atmosphere of the Dominican
          Republic, the management section’s internal controls have been weak for a number of years,
          as reflected in the past three OIG inspection reports. The arrival of a new management
          counselor in the summer of 2010 has reenergized the operation, with more attention to
          accountability. However, a number of deficiencies continue, particularly in motor pool,
          procurement, housing, facilities, and maintenance. Staffing gaps have had serious negative
          consequences, but they do not explain the decade-long weakness in the general services area.

         Although Embassy Santo Domingo is one of the busiest visa issuing missions in the world
          and is operating in a high-fraud environment, consular services are, for the most part, well
          run. However, the section must improve its customer service orientation. Moreover, the
          consular agency at Puerto Plata does not (b) (5)                              conduct
          financial operations in accordance with Department of State (Department) regulations.

         The law enforcement agencies in Santo Domingo conduct effective counternarcotics and
          counterterrorism programs. The narcotics affairs section (NAS) needs an additional U.S.
          direct-hire position to carry out its responsibilities effectively. The role of NAS contractors
          needs to be better defined and consistent with Department regulations.

         The public affairs section (PAS) conducts effective cultural programming and social media
          outreach, and the image of the United States in the Dominican Republic is high. However,
                                                                  1
                   OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                                    SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

          the embassy needs to address financial irregularities at the Binational Center (BNC) in
          Santiago before conducting any more programs with, or providing further support to, the
          BNC.

         The Leahy vetting process to screen nominees for American-funded training for human rights
          violations is not as effective as it needs to be, and the mission lacks a standard operating
          policy.
(b) (5)




   The inspection took place in Washington, DC, between January 3 and 28, 2011; in Santo
   Domingo, Dominican Republic, between February 25 and March 15, 2011; and in Puerto Plata
   and Punta Cana, Dominican Republic, March 4, 2011. (b) (6)




                                                                  2
                   OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Context
        The Dominican Republic, located just 70 miles from the U.S. Commonwealth of Puerto
Rico, is the second-largest Caribbean country after Cuba. It shares the island of Hispaniola with
Haiti. In the wake of the 2010 earthquake in Haiti, the Dominican Republic and the U.S.
embassy in Santo Domingo provided invaluable assistance and support.

        The United States has played an active role in the history of the Dominican Republic over
the past century and has intervened twice. U.S. Marines landed in 1916 during a period of unrest
and established a military government that lasted until 1924. In 1965 American troops landed
again in Santo Domingo to protect U.S. citizens during another period of unrest. Following 30
years of the Trujillo dictatorship, democracy gradually took root and the electoral process since
1996 has been generally free and fair.

        The Dominican Republic is an American ally in a region of strategic importance. U.S.-
Dominican relations are close and collaborative, as evidenced when President Obama received
Dominican president Leonel Fernandez at the White House in July 2010. The United States is the
Dominican Republic’s largest trade partner. The Dominican Republic and the United States
participate in the Central American and Dominican Republic Free Trade Agreement. Over 1
million people of Dominican origin live in the United States and return $3 billion in remittances
annually. The U.S. Agency for International Development (USAID) provides $35 million in
foreign assistance each year, and Dominican law enforcement agencies and its military cooperate
closely with U.S. counterparts.

        Among the embassy’s priorities are to provide excellent consular services to the 100,000
Americans who live in the Dominican Republic, the 1.2 million Americans who visit, and the
more than 180,000 Dominicans who apply for visas each year. Another priority is to assist the
Dominican Republic in addressing the narcotics problem. Located astride key drug smuggling
routes, the Dominican Republic is a critical link in the U.S. war on international crime and drugs
and a key partner in interdiction, arrest, and extradition efforts. The Drug Enforcement
Administration, the Department of Homeland Security, the Department of Defense, and other
agencies cooperate with the Dominicans in carrying out major antinarcotics programs.
Washington agencies have praised Mission Santo Domingo’s effective coordination of its
diverse antinarcotics, economic development, and other assistance programs, but the challenge is
great in the face of a widespread culture of corruption, cronyism, and patronage.

        Embassy Santo Domingo has 151 Department and other agency direct-hire employees
and 353 locally employed (LE) staff. There are approximately 250 Peace Corps staff and
volunteers in the Dominican Republic. The total mission budget for FY 2010 was approximately
$116.6 million. U.S. foreign assistance to the Dominican Republic totals approximately $50
million annually. The embassy is housed in an overcrowded chancery constructed in 1939.
Embassy offices are spread out over eight locations in the city, some separated by a 45-minute
commute in heavy traffic. The Bureau of Overseas Buildings Operations (OBO) is constructing a
new embassy compound, with completion expected in 2014.

                                                            3
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




                                               4
OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                 SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Executive Direction
Country Team and Interagency Relations

        The country team at Embassy Santo Domingo includes representatives of 10 agencies in
addition to the Department: Agriculture, Commerce, Defense, Justice, Homeland Security,
Health and Human Services, Treasury, Peace Corps, Social Security, and USAID. The country
team focuses on counternarcotics and counterterrorism, democracy, economic growth, health,
education, and the provision of consular services. Interagency relations are cooperative and
collegial.

        Executive direction occurs through weekly country team meetings and senior staff
meetings chaired by the Ambassador, as well as through a series of working group meetings on
specific issues (law enforcement, counternarcotics, counterterrorism, etc.) organized by a section
chief and chaired by the DCM or, on occasion, by the Ambassador. Individual sections also meet
separately with the DCM on a regular basis.

       Several agencies and sections suggested to the OIG team that there were too many
meetings, some of which had overlapping agendas and participants.

          Informal Recommendation 1: Embassy Santo Domingo should review the existing
          pattern of staff meetings to determine the optimum structure.

Mission Strategic and Resource Plan

         The 2011 Mission Strategic and Resource Plan was developed by a process that involved
all sections and agencies at the mission. The plan identified 10 goals and established benchmarks
and criteria to judge progress. During the past year, the DCM, while serving as chargé d’affaires,
chaired meetings to review how the mission was meeting the various performance indicators.
Embassy personnel told the OIG team that Department offices provided little feedback on the
Mission Strategic and Resource Plan.

        After arriving at the embassy, the Ambassador organized a 2-day off-site meeting at his
residence to discuss the embassy’s goals and objectives and to prepare for the next Mission
Strategic and Resource Plan cycle. Department and other agency representatives expressed
satisfaction at the Ambassador’s initiative, both to learn his vision of where he would like to lead
the embassy (education is his number one priority) and to have a chance to interact with him
personally.

(b) (5)




                                                             5
              OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                               SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

(b) (5)



        Although responsibility for these security deficiencies devolves in the first instance to the
regional security officer and his staff, the OIG team believes that the DCM should have become
aware of the deficiencies during his 15-month tenure as chargé d’affaires and have taken
aggressive leadership action to correct them. The DCM, with the support of the Ambassador who
has overall responsibility for the security of the mission, must exercise close oversight to ensure
that the recommendations to address the deficiencies in the mission’s security programs are
implemented.

       Management activities are another area of concern. The OIG team identified a number of
continuing deficiencies, particularly in motor pool, procurement, housing, facilities,
maintenance, and information management. Many of these issues are long-standing and have
been reported by previous OIG teams.1 They will require attention from a wide range of
embassy personnel, including the direct involvement of the DCM, if they are to be resolved.

Recommendation 1: Embassy Santo Domingo should establish and implement procedures so
that the deputy chief of mission, with the support of the Ambassador, assists with and exercises
close oversight of actions taken to correct the security and management deficiencies identified in
this report and its classified annex. (Action: Embassy Santo Domingo)

Support of Equal Employment Opportunity Program Objectives

       In the past 2 years, Embassy Santo Domingo has had five Equal Employment
Opportunity (EEO) cases, including allegations of sexual harassment, which is an unusually high
number for a mission of its size. The embassy EEO counselors acted to resolve the cases or to
forward them to the Office of Civil Rights in the Department.

        As a result of the repeated allegations, in July 2010, two representatives from the Office
of Civil Rights visited the mission and conducted 15 training sessions on EEO objectives and the
prohibitions on sexual harassment. The training sessions were mandatory for all supervisors and
employees. Since the training was held and the individual who was the subject of the charges left
the mission, there have been no additional cases brought to the attention of the counselors.

        During the time of the inspection, the DCM, chairing the country team and senior staff
meetings in the absence of the Ambassador, stressed the mission’s zero tolerance for sexual
harassment. He distributed information sheets on EEO issues and asked the country team to be
sure that all employees knew the names of the two EEO counselors at the mission.




1
    These inspections were conducted in 1999 and 2005.
                                                                6
                 OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Leadership

        For most of the past 2 years, Embassy Santo Domingo has been under the leadership of a
chargé d’affaires. The current DCM served in that position for more than 15 months prior to the
arrival of the Ambassador. Following the 2010 earthquake in Haiti, the chargé d’affaires
provided outstanding leadership in organizing the mission’s relief and humanitarian assistance to
the victims and to American citizens evacuating from Haiti. He played a critical role in obtaining
approval from the Department to advance construction of a new embassy compound by 9 years,
which will alleviate the communication and coordination challenges of having the mission
spread out over eight locations. He also provided effective direction to the country team agencies
and sections that are conducting large and important programs in areas such as counternarcotics,
counterterrorism, and development assistance. As discussed elsewhere in this report, however, he
did not adequately address deficiencies in some areas of mission operations.

       The DCM has played a valuable role in offering his knowledge and experience of embassy
operations to the new Ambassador as he assumes leadership and direction of the embassy. The
Ambassador intends to take a management-by-objectives approach, keeping the focus on the
embassy’s main goals and objectives.

(b) (5)




Public Diplomacy

        Mission leadership is aware of the importance of public diplomacy and outreach in
working toward U.S. goals in the Dominican Republic. Coming from the private sector, where he
was the national spokesman for a civil rights organization, the Ambassador understands fully the
need to get the U.S. message out to the Dominican public. The embassy public affairs section is
working closely with him to develop the most effective procedures to do so. Other sections and
agencies participate in the effort. For example, consular officers, in coordination with PAS and a
local nongovernmental organization, host and moderate film screenings and discussions of
current events. USAID, the Foreign Commercial Service, the Foreign Agriculture Service, and
others commented favorably on the support PAS gives to their effort.

                                                            7
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Entry-Level-Officer Program

         Although the embassy has 22 entry-level officers (ELO), it has a meager development
and mentoring program. The DCM receives ELOs for a courtesy call upon their arrival and
meets them one on one for lunch once during their tour. A rotational program gives ELOs the
opportunity to work in two or three different units during a 2-year tour. Invitations to events are
shared among ELOs, and on infrequent occasions they assist in activities outside their work
areas, such as congressional or other high-level visits. A number of ELOs take advantage of
public speaking opportunities. When the OIG team met with the ELOs, they requested that more
activities and events be held at the consular annex, where most of them work. In addition, the
first-tour officers doing out-of-cone consular assignments said they would find it valuable to do
some work in their home cones, such as management, economic and political, and public
diplomacy.

       Informal Recommendation 2: Embassy Santo Domingo should develop a mentoring
       program for entry-level officers, headed by the deputy chief of mission, which involves
       more interaction with the front office and with officers in other sections and agencies.

Contact Database

        Embassy Santo Domingo does not have a central contact database that serves as a
clearinghouse for all sections’ contacts. For each medium or large event, the protocol assistant
passes around the guest list from the previous year’s event to embassy officers and LE staff for
additions and subtractions, then incorporates the changes into a Word document to create a
master guest list. This is quite time consuming, as the embassy’s one protocol assistant must look
through the master list for each event for duplications, misspelled names, and incorrect
addresses. In addition, when called upon intermittently to revise an existing guest list, officers
may forget some of the changes in contact information that have accumulated over the year.
With a database that allows the same officers to delete and add names continuously as their lists
of contacts evolve, the protocol assistant would be assured of a more accurate and up-to-date list.
When guest lists are assembled on short notice from a variety of sources, multiple spellings for
the same person occasionally slip through, requiring the protocol assistant to spend an inordinate
amount of time revising the list. With an embassy-wide contact database, the protocol assistant
could update contact information regularly and ensure its accuracy.

Recommendation 2: Embassy Santo Domingo should create a central contact database and use
it as the exclusive source of guest lists for medium and large events. (Action: Embassy Santo
Domingo)




                                                            8
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Policy and Program Implementation
Economic/Political Section

Organization of the Economic/Political Section

         The head of the combined economic/political (ECOPOL) section is an FS-01 political
officer. Two FS-02 officers head the section’s political and economic units. The political unit has
an officer who covers judicial affairs, such as extraditions and vetting, and both units have
rotational ELOs. The section employs a Foreign Service national-9 specialist. All officers
maintain functional working relations with host country counterparts in ministries,
nongovernmental organizations, and multilateral organizations but could improve their outreach
efforts through greater use of representational activities. There is very good oversight and
mentoring of the section’s two rotational ELOs, and all American staff members enjoy a high
level of morale. Section meetings are unscheduled and focus principally on taskings, which does
not enhance the section’s creativity, hone a strategic outlook, or support staff professional
development.

       Informal Recommendation 3: Embassy Santo Domingo should hold regular
       economic/political section meetings that are structured to facilitate information sharing
       and discussion.

Reporting

        The ECOPOL section has a relevant reporting plan that generates a good, timely, and
steady flow of reporting. Reporting does not seem to have suffered from the WikiLeaks scandal.
The section can sharpen the focus of its reporting by taking better advantage of interagency
working groups, such as the economic commercial working group, to launch a team strategic
approach that optimizes reporting and program efforts in today’s tight budget environment.
Better and more regular feedback from the regional bureau desk will also benefit reporting
officers’ efforts to key in on issues relevant to American political and commercial interests. The
OIG team discussed procedures to provide regular feedback and direction from the Bureau of
Western Hemisphere Affairs (WHA).

        The embassy has no policy governing the use of cables, record emails, and working
emails in mission reporting. At present few, if any, officers are using record emails, and few
reporting officers feel adequately trained in the State Messaging and Archive Retrieval Toolset
(SMART). There is no mechanism assuring that key mission communications will be tracked
and recorded as the Department mandates. A policy would outline the procedures the mission
expects officers to follow in conducting their communications.

Recommendation 3: Embassy Santo Domingo should establish and implement a written
mission policy governing the use of cables, record emails, and working emails. (Action:
Embassy Santo Domingo)

                                                            9
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        One important reason for embassy officers not fully utilizing SMART is their insufficient
familiarity with the system. Training at the time of SMART implementation was not adequate.
This problem can be resolved if the mission implements a training program either through
internal classroom training or via SMART Webinars.

       Informal Recommendation 4: Embassy Santo Domingo should develop a training
       regimen for mission personnel who create and administer record emails via the State
       Messaging and Archive Retrieval Toolset.

Human Rights, Leahy Vetting, and Extraditions

        The Dominican Republic suffers from many serious human rights problems, including
extrajudicial police and military killings, beatings of prisoners, and severe discrimination against
Haitian migrants and their descendants. The Leahy vetting process aims to bar perpetrators of
such abuse from U.S. Government-funded training and assistance programs. In 2010, Embassy
Santo Domingo processed nearly 1,000 Leahy vetting requests, most if not all of which were sent
to the Department for inclusion in its internal vetting and security tracking (INVEST) database
system. A review of responses from the Department indicated that the INVEST process rejected
only two submissions. The ECOPOL section reported that few Leahy vetting requests at the
mission resulted in denials, and these denials were for crimes rather than human rights-related
abuses. The ECOPOL section did not have the Foreign Assistance Vetting standard operating
procedure. The embassy also does not have a database of Dominicans about whom derogatory
human rights abuse information is known, nor does it seek or submit derogatory information to
the INVEST system. Given the profile of human rights issues in the Dominican Republic and the
large number of Dominican Republic police and security force candidates for U.S. Government
programs, the Leahy vetting process needs to be tightened.

Recommendation 4: Embassy Santo Domingo should establish and implement a Foreign
Assistance Vetting standard operating procedure that effectively screens candidates for U.S.
Government-funded assistance. (Action: Embassy Santo Domingo)

         The ECOPOL section provides valuable support to mission law enforcement agencies by
facilitating a relatively large number of extradition requests to return fugitives to the United
States for prosecution. In 2010, the Dominican Republic extradited 22 wanted fugitives to the
United States, mostly for narcotics-related offenses. Only three requests for extradition that went
before the Dominican Republic Supreme Court were denied in 2010.

        In 2010, the Department elevated the Dominican Republic to ―t    ier 3‖ status for
trafficking-in-persons (TIP) violations. The embassy reporting that contributed to this finding
suffered from a lack of local statistical evidence and successfully prosecuted cases. The mission
has put increased staff resources into investigating TIP abuses. At the same time, it has engaged
diplomatically to encourage stronger Government of the Dominican Republic efforts to deal
effectively with TIP crimes. A USAID-funded assessment completed in early 2011 provided
much greater insight and detail on the nature of the problem, as well as areas in which progress
has been made and in which institutional and enforcement weaknesses still exist. Subsequent
                                                           10
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

reporting promises to provide a fuller perspective on the nature of the TIP situation in the
Dominican Republic.

Narcotics Affairs Section

Narcotics Interdiction

       The Dominican Republic, through which flows an estimated 3 percent of the cocaine
entering the United States, is the largest Caribbean transit location for cocaine and illicit drugs
shipments to the United States. The Department is now considering a proposal under a bilateral
program entitled ―Sovereign Skies‖ to develop tactical airlift to the Government of the
Dominican Republic for use in the interdiction of transiting illicit narcotics. All elements of the
mission interagency team support this initiative.

Organization of the Narcotics Affairs Section

        The NAS budget has grown over the past few years, from $1.8 million in FY 2005 to
more than $15 million in FY 2010. However, the FY 2010 budget allocation of $10 million to
the Sovereign Skies program may not be realized if the program is not approved. Even if the sum
is eventually rescinded, however, the NAS budget has still almost tripled over the past 5 years
and is now supporting programs as well as projects.

        The NAS director serves as the Ambassador’s principal advisor for narcotics affairs. The
level of interagency cooperation between NAS and law enforcement agencies has increased since
the director’s arrival in late 2010. NAS appears to share close and good collaboration with other
embassy sections and agencies. It also meets periodically with its counterpart at Embassy Port-
au-Prince to coordinate programs.

        There have been numerous staffing gaps in the NAS director position. When this has
occurred, NAS personal services contract personnel attended country team and other senior-level
meetings and represented NAS in one-on-one meetings with the chiefs of the national police and
the narcotics police. Now that a NAS director is in place, this practice is no longer appropriate or
needed, and its continuation may be hampering mission operations.(b) (5)




        Foreign Affairs Manual regulation 3 FAM 7261.2 and USAID Acquisition Regulations,
Appendix D, provide detailed authority allowing a personal services contractor to represent the
hiring agency in dealing with host government officials in certain circumstances. However, it is
difficult or impossible for personal services contractors to meet with policy-level officials, such
as the chief of the national police, without conveying an impression that they are representing the
mission, and, as such, the U.S. Government. In addition, meetings on the policy level always
raise questions of accountability regarding what is said, what is understood, what other issues
arise, and what is reported back to the mission.
                                                           11
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 5: Embassy Santo Domingo should develop guidance for
       personal services contractors that specifies which mission meetings they should attend
       and prohibits their assuming supervisory or senior roles on the mission team or their
       replacing U.S. mission officers in personal meetings with senior policy-level officials in
       the Dominican Government.

        Suffering from a lack of sufficient Department staff to carry out duties at a time when the
program and budget have increased significantly, NAS has had to rely extensively on personal
services contractors. In numerous instances, NAS has utilized personal services contractor staff
for tasks that direct-hire employees should have assumed. This practice has complicated and
sometimes hindered cooperation between NAS and law enforcement agencies at post (see also
Informal Recommendation 5). In its 2005 inspection report, the OIG team concurred with the
embassy’s request for a second NAS officer. However, this request was never granted. Even in
today’s lean budget environment, NAS, with its greater budget and broader range of programs,
requires an additional direct-hire position.

Recommendation 5: Embassy Santo Domingo, in coordination with the Bureau of Western
Hemisphere Affairs and the Bureau of International Narcotics and Law Enforcement Affairs,
should review the mix of direct-hire and contract personnel in the narcotics affairs section
program and, if justified, request an additional direct-hire position. (Action: Embassy Santo
Domingo, in coordination with WHA and INL)

        With rare exceptions, the Bureau of International Narcotics and Law Enforcement Affairs
handles and signs contracts and grants for projects and programs in the Dominican Republic.
NAS provides local oversight. The NAS director conducts an informal and continual assessment
of the success or failure of assistance programs and, during his short tenure, has already
redesigned programs to make them more effective. However, the NAS director has not taken the
Foreign Service Institute contracting officer’s training, nor has he been designated as a
contracting officer’s representative by the Bureau of International Narcotics and Law
Enforcement Affairs. This training is necessary to ensure that mission oversight of these
contracts is consistent with Department standards and regulations.

Recommendation 6: The Bureau of International Narcotics and Law Enforcement Affairs
should designate and train a contracting officer’s representative for the narcotics affairs section
at Embassy Santo Domingo. (Action: INL)

        In January 2009, the Bureau of International Narcotics and Law Enforcement Affairs
issued a report on a management assessment visit to the Dominican Republic. The report made
25 recommendations for improving NAS operations. At the time of the OIG visit, the NAS
section was working to close the recommendations but still had seven recommendations open.

       Informal Recommendation 6: Embassy Santo Domingo should expeditiously complete
       all management assessment visit recommendations that the Bureau of International
       Narcotics and Law Enforcement Affairs made in its January 2009 report.

                                                           12
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Consular Affairs

        Embassy Santo Domingo’s consular employees, housed in an extremely cramped
workspace, provide effective services in a high-volume, high-fraud environment. Although
section management has reduced backlogs and wait times for appointments, it has done so at the
expense of other customer services. The fraud prevention unit (FPU), working closely with the
assistant regional security officer-investigations (ARSO-I), impedes non bona fide travel to the
United States, but the culture of corruption and tradition of fraud in the Dominican Republic
guarantees constant challenges.

Management and Outreach

       A respected leader, who moved into the position after the departure of the previous
consul general, manages the consular section. The deputy consul general position is now vacant,
which places strains on both the consul general and the mid-level unit chiefs who share these
responsibilities. The section is generously staffed with 6 mid-level officers and 23 ELOs. The
Bureau of Consular Affairs has used ELOs from the Dominican Republic to help regional posts
that were experiencing staffing shortages.

       The consular section in Santo Domingo is housed in an overcrowded facility half a mile
west of the chancery. All customer interaction takes place on the ground floor, through a
Dickensian warren of windows. On the east side of the building, officers at 13 immigrant visa
windows handle approximately 300 applicants a day. On the west side of the building, 500
nonimmigrant visa (NIV) applicants are processed each day at 12 windows. In the middle are the
American citizens services (ACS) unit waiting area and four windows, two Social Security
Administration windows, and two fraud interview booths. The ground floor work areas behind
the multitude of interview windows are cramped and crowded.

        The second floor of the building is dedicated to the immigrant visa processing staff and a
small U.S. Citizenship and Immigration Services office. The third floor contains the consul
general’s suite, the FPU, the ARSO-I and his staff, the Federal benefits unit, and the ACS staff.
Because of the distance between the windows and the supervisory staff on the second and third
floors, supervisors must leave their desks to oversee the ground floor workers. A
recommendation in the Immigrant Visas section of this report addresses this issue.

        The consular section has a robust professional development program. Officers rotate
through the four units, depending on their needs and desires; ELOs participate in regular film
screenings and other public diplomacy events; and consular ELOs take notes at country team
meetings. However, consular staff members have little contact with the rest of the embassy and
feel physically and operationally isolated from the mission.

       (b) (5)

             Some officers stated matter-of-factly that their customers sometimes had to wait 9
                                                               13
                 OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

hours for services. (b) (5)
            The embassy has given some attention to this issue in the past, through occasional
presentations on customer service, dealing with stress, and conflict resolution. A number of
employees interviewed by the OIG team believed that additional stress management and
customer service training would be helpful. It would also improve the section’s ability to conduct
more effective outreach and public diplomacy activities, as also noted in the Public Diplomacy
section of this report.

       Informal Recommendation 7: Embassy Santo Domingo should conduct regular consular
       training sessions on customer service, stress management, and conflict resolution.

        In addition to dealing with the effects of difficult work circumstances on employees, the
consular section can improve the situation by viewing its clients differently. Embassy Santo
Domingo has an opportunity to influence positively the 180,000 Dominican citizens who visit
the consular section annually for services. For example, all three waiting rooms contain flat-
screen monitors that display local television broadcasts, mainly cartoons. These monitors could
be better utilized to provide guidance on the visa process, finger scanning procedures, citizenship
documentation, antifraud messages, the embassy’s activities in the Dominican Republic, or
information about the United States. By considering the public diplomacy ramifications of all
their actions, consular employees can improve the experience of their customers and help win the
hearts and minds of the Dominican people.

       Informal Recommendation 8: Embassy Santo Domingo should establish a committee to
       explore better ways to reach out to consular clients so that their visits to the embassy are
       positive and professional experiences.

        The consular section uses a variety of electronic and social media to communicate with
the Dominican public. One of the key tools consists of appearances on a television show called
―V isa Semanal‖ (Visa Weekly) and a radio program called ―    Micro Visas.‖ A prominent
Dominican immigration attorney hosts both weekly broadcasts. It is inappropriate for the U.S.
embassy to lend credence to this attorney by having consular staff members appear as regular
guests on his show. The public could improperly believe that there is a connection between the
immigration attorney and the consular section.

Recommendation 7: Embassy Santo Domingo should cease participating in the immigration
attorney’s radio and television shows and explore neutral broadcast venues for disseminating its
consular information over the airwaves. (Action: Embassy Santo Domingo)

American Citizens Services

        The ACS unit provides services to a large resident and transient population of U.S.
citizens in a critical crime, high-fraud environment. The experienced personnel efficiently handle
a varied special consular services portfolio, providing prompt and effective assistance to
Americans in need. An excellent after-hours duty officer system (supported with a superb
                                                           14
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

electronic duty handbook) funnels information to the section for action, either immediate or upon
opening of business. The ACS unit uses email to disseminate and track actions on breaking ACS
cases.

        Although the emergency ACS services are top notch, routine citizenship transactions,
such as passports and consular reports of birth abroad, are a different story. Because of the
extensive fraud and burgeoning workload, the ACS unit must ration appointments, which creates
temporary backlogs. Customers who come to the unit for citizenship services are given staggered
appointments only in the early morning and then must wait their turn to see a consular officer.
Clients (including young children) had to wait several hours for their interviews. Keeping
American citizens waiting for hours reflects poorly on the mission. (See a related
recommendation regarding immigrant visa (IV) services in the Customer Service and Quality
Control section of this report.)

Recommendation 8: Embassy Santo Domingo should change its appointment schedule for
American citizens services to reduce the wait time for U.S. client interviews to no more than an
hour. (Action: Embassy Santo Domingo)

Federal Benefits Unit

       Employees of the Social Security Administration, who report to the regional manager in
Costa Rica, staff the Federal benefits unit. They report good cooperation with the ACS unit.

Consular Agency Puerto Plata

        Puerto Plata is located on the north coast of the Dominican Republic and has historically
been a focus of international tourism and a destination for foreigners looking for inexpensive
tropical living. In recent years, Punta Cana has overtaken Puerto Plata as a tourist destination, but
the resident community in Puerto Plata keeps the consular agency busy. The embassy praised the
consular agent for his welfare and whereabouts activities and emergency services.

      The agency is on the second floor of a commercial building, across the hall from the
Canadian honorary consul. (b) (5)



                                                    The FY 2011 Santo Domingo Mission
Strategic and Resource Plan lists the relocation of the consular agency as an objective. The agent
located a potential new office, but the embassy has not taken any action to move the agency. The
classified annex to this report contains a recommendation regarding this situation.

        The consular agent communicates with the embassy by telephone and Internet email. He
has a ―One FOB‖ encryption device to permit him access to the Department intranet for sensitive

                                                           15
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

communications, but it does not work. Evidently, the embassy had assigned the FOB to the
previous agent, and it has not functioned in the 3 years that the current agent has had it.

       Informal Recommendation 9: Embassy Santo Domingo should assign a functioning
       ―One FOB‖ encryption device to the consular agent in Puerto Plata.

       The consular agency routinely processed and disposes of personally identifiable
information. However, their only ―shredder‖ is a home-office model that slices the paper into ¼-
inch-wide strips. The OIG team advised the agency staff not to use the slicer but to send
personally identifiable information to the embassy for proper disposal until they obtained a
cross-cut shredder.

       Informal Recommendation 10: Embassy Santo Domingo should provide the consular
       agency in Puerto Plata with a Department-approved cross-cut shredder.

Consular Agency Puerto Plata Cash Accountability

        The accountability files for the consular agency are not in order. There are no completed
and approved ―Daily Accounting Sheets,‖ showing that the monthly cash transactions have been
reviewed and approved by the financial management officer (FMO) in Santo Domingo, as
required by the Foreign Affairs Handbook (7 FAH-1 H-787.8). Although the daily accounting
sheets in the files contain hand-written corrections and errors, a review of several months’
Automated Cash Register System reports and the associated OF-158 receipts did not yield any
discrepancies. During the OIG team’s 1-day visit, the automated cash register system was not
working and had not worked for over a week. As a result, the agency was using manual receipts
(Form DS-4042).

        In the past, the agency deposited its cash—totaling $5,000 to $6,000—only once a
month. The agency staff members said that they now knew to deposit the money once a week or
when it reached $1,000. The consular agent said that he had performed a surprise cash count in
January 2011, but there was no written record of the count in the files as required by 7 FAH-1 H-
771.5. (b) (5)


Recommendation 9: Embassy Santo Domingo should cease all fee services at the consular
agency in Puerto Plata until all monthly consular cash accounting (including daily accounting
sheets approved by the financial management officer) from January 2010 until February 2011 are
complete and the agency has established internal controls and standard operating procedures as
outlined in Department of State regulations to facilitate future accountability. (Action: Embassy
Santo Domingo)




                                                           16
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Consular Agency Punta Cana

         Forty percent of all American visitors to the Dominican Republic now arrive at the
rapidly expanding beach resort area of Punta Cana. The consular agency was established to serve
this clientele as well as other Americans residing in the eastern part of the country. The agent’s
office is located on the second floor of a shopping mall in the town of Bavaro. The agency will
open for services to American citizens upon completion of the consular agent’s security
clearance. The facility comfortably houses the two staff members, associated equipment, and a
public waiting room. Both employees have close links to local authorities and travel industry
representatives.

Immigrant Visas

         The IV unit was the largest element of Embassy Santo Domingo’s consular section and
processed the second largest number of U.S. IV cases in the world. An experienced mid-level
officer and a seasoned deputy competently managed the unit. They supervised 10 ELOs, 39 LE
staff (some of whom are American citizens), and 5 eligible family members (EFM). Working
conditions were cramped, and there were physical impediments to effective line-of-sight
supervision.

        Unreliable civil documentation, fraudulent relationships, and grounds of ineligibility
based on crimes of moral turpitude, narcotics trafficking, previous visa overstays, and public
charge provisions of immigration law complicate IV processing. Family and economic
inducements to migrate to the United States are strong, and there is a thriving local fraud
industry. The IV unit has an excellent relationship with the FPU, the ARSO-I, and the local
offices of the Department of Homeland Security.

        The unit handled 69,000 cases in FY 2010, markedly above the average of 43,000 cases
of the preceding 5 years. Historically, IV processing in Santo Domingo has suffered backlogs in
appointment wait times of over 1 year. Since the 2005 OIG inspection, consular managers and
staff reduced these backlogs, and by March 2011 the unit had eliminated them. In 2008, the
consular section forwarded 20,000 IV case files to the National Visa Center for scanning and
storage.

Supervision and Oversight

        The OIG team noted that all 38 subordinate LE staff members report to a team leader,
who reports to the senior LE supervisor, who in turn reports directly to the IV chief. Many
communications between ELOs and IV LE staff must pass through this single supervisor. This
arrangement limits the ability of clerical employees to air concerns and suggestions to American
officers. It also limits opportunities for ELOs to manage subordinates. Assigning ELOs to
oversee each of the five LE staff work teams will help improve overall communication within
the unit and enhance ELO professional development.

                                                           17
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 11: Embassy Santo Domingo should assign entry-level
       officers to oversee each of the five immigrant visa unit’s locally employed staff work
       teams.

Customer Service and Quality Control

       The IV unit schedules its interview appointment times in two early morning blocks at
6:15 a.m. and 7:30 a.m. As many as several hundred applicants for both IVs and NIVs may
already be lined up to enter the screening area and waiting room even before the first intake time.
The massing of applicants early in the morning creates unnecessary congestion in the waiting
room and results in long wait time for interviews. On more than one occasion, the OIG team
observed children waiting for interviews in the afternoon, well past their appointment times.

        The rush to complete intake all at once creates internal problems as well. LE staff
members make data transcription and photo capture errors that slow processing. Bringing in the
applicants at the same time also requires EFMs and LE staff to double up at windows, which
adds to the noise and congestion and increases the risk of errors. In contrast, the unit’s interview
and intake windows are largely unused later in the day. A greater staggering of IV intake and
interview times will result in more favorable customer service and less risk of data entry errors.

Recommendation 10: Embassy Santo Domingo, in coordination with the Bureau of Consular
Affairs, should review its immigrant visa unit workflow procedures, stagger its immigrant visa
appointment times to reduce waiting room congestion and interview wait times for its clients,
and ask the Bureau of Consular Affairs to instruct the National Visa Center to schedule cases
accordingly. (Action: Embassy Santo Domingo, in coordination with CA)

       A supervision deficiency exists during the first hour of IV operations each day. LE staff
members begin document intake at 6:30 a.m. on the ground floor, but the American IV officers
work at their desks on the second floor until 8:00 a.m., when they begin interviewing. One
American officer opens the building and the visa waiting room at 6:30 a.m. but is not required to
remain in the work area. Although no controlled material is in the workplace during this period,
the absence of American supervision increases the risk of inappropriate treatment of applicants
and malfeasance.

       Informal Recommendation 12: Embassy Santo Domingo should require an American
       officer to be present in the immigrant visa work area whenever locally employed
       personnel are working there.

Nonimmigrant Visas

        Embassy Santo Domingo has a high NIV workload. The pervasive documentary fraud,
misrepresentation, and sophisticated visa touts who coach visa applicants on concealing their
ineligibilities make the work challenging. An experienced mid-level chief supervises the unit,
which comprises 7 ELOs, 15 LE staff members, and 5 EFMs. The unit handled 113,000 cases in
                                                18
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

FY 2010, with a refusal rate of just under 30 percent. During the OIG visit, consular
management was utilizing validation studies to determine whether the current refusal levels were
appropriate. The NIV unit’s staffing appeared adequate for its current workload. Officers were
working minimal overtime, and the appointment waiting period was only 2 business days.

         Although the unit transitioned successfully to the new Internet-based NIV application in
mid-2010, the new process is troublesome for many Dominican applicants. LE staff estimated
that approximately 5 percent of applicants resubmitted applications to correct data presented on
their interview day. In late February 2010, consular management authorized LE staff to annotate
those applications containing missing or incomplete supplementary data. This approach was
deemed more efficient than requiring mass resubmissions of applications and setting new
interview dates. NIV appointments, appropriately staggered throughout the workday, are made
through the Mexico-based regional call center, which also provides telephone information and
greeters to help direct clientele in the waiting room.

       With one exception, supervisory officers were conducting NIV adjudication reviews
according to Department guidance: The DCM was not reviewing the consul general’s visa
adjudications. This review is an important management control to ensure the integrity of the visa
adjudication process.

Recommendation 11: Embassy Santo Domingo should establish and implement procedures so
that the deputy chief of mission regularly reviews the visa issuances and refusals of the consul
general. (Action: Embassy Santo Domingo)

Nonimmigrant Visa Referrals

        In the 12 months before the OIG inspection, Embassy Santo Domingo processed almost
1,000 NIV referrals, of which only 1 percent constituted Class A cases. A small sample of 10
Class B referrals yielded an example of a Class A referral (the wife of the President of the
Dominican Republic Senate) that was processed as a Class B referral. Another problem was that
consular staffers were referring cases that were not consular contacts. For example, the first
consular section referral case that the OIG team examined was that of a Mexican model for a
well-known intimate-apparel company. The Dominican Foreign Ministry had forwarded the case
to the consul general.

        Consular staffers should refer only those cases in which the U.S. official consular interest
is beyond question. Consular review of referral cases is an important internal control in the
process. When consular officials refer extraneous cases, that layer of review and control is lost. In
addition, the documentation of the cases reviewed showed that, in most instances, there was no
clear exposition of the U.S. Government interest in the traveler as specified in 9 FAM Appendix
K. The consular section was performing required yearly validation studies, which showed that
there were no systemic problems with travelers overstaying in the United States.



                                                           19
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy Santo Domingo should require that consular staff carefully
follow the definitions of nonimmigrant visa referrals as set out in Department of State
regulations, that all referrals clearly state the U.S. Government interest in the traveler, and that
the consular section refers only cases that are of clear, official consular interest. (Action:
Embassy Santo Domingo)

        One of the reasons for so many referrals was that there are travelers (including famous
entertainers) whose presence in the consular section could be disruptive. Rather than document
them all as referrals, the section could establish an expedited appointment or processing avenue
by which applicants could directly contact the consular section. The NIV chief could then (in a
transparent and documented manner) offer a special appointment at a time when the waiting
room is not full.

       Informal Recommendation 13: Embassy Santo Domingo should establish a special
       email address by which the visa section could directly accept requests from emergency
       and high-profile cases for expedited appointments and processing.

Visas Viper

        The FPU chief coordinates Embassy Santo Domingo’s Visas Viper committee. The DCM
chairs its monthly meetings, and all relevant offices at the embassy attend. Five of the monthly
reports for the past year were submitted past the monthly reporting deadline specified in 9 FAM
40.37 N5.2. The embassy did not submit any names in the past 12 months.

       Informal Recommendation 14: Embassy Santo Domingo should implement procedures
       for the Visas Viper committee to submit monthly reports no later than 10 days following
       the end of the previous month.

Fraud Prevention Unit

       Santo Domingo’s FPU is one of the most productive in the world. In January 2011, it
confirmed more than five times more immigrant visa fraud cases (251) than the second place
mission (Phnom Penh, with 47). Its collaboration with the colocated ARSO-I office is ideal. Staff
meetings are jointly chaired, and their work is fully integrated.

       Although the FPU was efficient, it was constantly bombarded by a varied and dynamic
fraud environment. Dozens of visa fixers operate openly on the streets surrounding the consular
annex, just beyond the reach of the numerous guards and national police. The FPU and ARSO-I
were examining innovative ways to engage the visa fixers rather than just chase them away.
These many challenges will keep the FPU in Santo Domingo fully occupied.




                                                            20
              OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Public Diplomacy

        The Embassy Santo Domingo PAS consists of 3 American officers and a staff of 14
Dominican employees working at the Centro Franklin, a decaying ex-United States Information
Service facility 2 miles from the embassy. The PAS information section coordinates and clears
press interactions for all sections and agencies within the embassy, manages the embassy Web
site and other social media sites, and operates a small, rarely visited library. The cultural section
promotes educational exchange primarily through its administration of the Fulbright Program,
and mutual understanding through its use of social media platforms and an active embassy
officer-centered speakers bureau program. Because PAS is scheduled to move to the new
embassy compound in 2014, the embassy does not plan to renovate the Centro Franklin.

        The embassy’s Internet site, Facebook page, and virtual library are PAS’s strongest suits.
As a part of a Mission Strategic and Resource Plan mutual understanding strategy to draw in a
younger audience and increase interest in U.S. culture and society, PAS promotes book clubs and
essay contests on its Facebook site. PAS officers also engage in online discussions with the site’s
fans about U.S. foreign policy and U.S.-Dominican Republic relations. With 28,000 fans in a
country of 9.3 million people, the site has one of the largest followings among posts in the
Western Hemisphere. The Facebook site is so lively that PAS found it necessary to create an ad
hoc committee to ensure, per 5 FAM 791 a., that fans are not using offensive or threatening
language and that third-party entities are not attempting to advertise or promote non-embassy-
related products and services. The committee, consisting of the public affairs officer (PAO),
information officer, webmaster, and Information Resource Center (IRC) assistant, meets
whenever IRC staff members notice any questionable postings. PAS removes advertising for
commercial products and services, as well as obviously offensive language, on a daily basis.

        The virtual library, administered by the IRC, is another equally successful social media
outreach tool aimed at secondary and university level students with research and English
language study-related questions. The increasingly popular virtual library provides links to free-
of-charge educational sites on subjects ranging from science and technology to English teaching
and a wide variety of information about the United States. As the virtual library grows and
becomes more popular, the IRC director, now its main administrator, will have to share the site’s
maintenance responsibilities with the PAS webmaster. As noted in the subsequent paragraphs,
this will require significant changes to position descriptions.

        The IRC library houses nearly 3,000 volumes of books and films and has 5 Internet
terminals for use by library patrons. In recent years, the number of visitors to the library has
dropped dramatically, as Dominicans have more and more sources of information to turn to and
security and parking restrictions make the space less welcoming. During the inspection period,
the library was often empty, with only the occasional patron using an Internet terminal. PAS has
ceased purchasing books for the library, and its collection is becoming increasingly outdated.
The regional information officer has suggested that the book collection be donated to a local
educational institution and that the IRC staff position descriptions be changed to increase the
focus on social media and personal outreach activities.

                                                           21
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Changing position descriptions would allow the IRC assistant to devote more time to
developing social media tools. It would also reassign audio-visual responsibilities from the
webmaster to the IRC technician (who now acts as library attendant), freeing the webmaster to
assist with the development of the PAS virtual library. Fortunately, both the IRC assistant and
technician possess considerable technical skills and would be able, under their new position
descriptions and with equipment that PAS already possesses, to create professional quality video
footage of embassy outreach activities and post them to the embassy’s various social media sites.

       Informal Recommendation 15: Embassy Santo Domingo should donate its book and
       digital video disc collections to an appropriate educational institution under a grant that
       specifies the terms of use.

       Informal Recommendation 16: Embassy Santo Domingo should rewrite position
       descriptions for the public affairs section webmaster, Information Resource Center
       assistant, and Information Resource Center technician to provide a greater emphasis on
       social media and direct person-to-person outreach.

Grants Management

        PAS administers approximately $320,000 worth of public diplomacy grants per year, and
the PAO, information officer, and cultural affairs officer all have warrants to administer grants.
The PAO’s administrative assistant, who manages the grants, has developed a detailed checklist
that she uses in addition to the checklist included on each grant folder to determine the status of
all documents, including progress and final reports, associated with each grant. In the vast
majority of cases, she has been successful in obtaining all required reports from grant recipients.

        PAS has not been able to obtain either progress or final reports for grants awarded during
the past 3 years to the BNC in Santiago, a city approximately 100 miles north of Santo Domingo.
These grants include two dating from 2009 for books and library furnishings, both of which have
expired without progress reports or final reports being supplied to PAS. The third, a grant dating
from 2008 for microscholarships for disadvantaged students to study English, has not yet
expired, but PAS has not received periodic progress reports from the grantee as required by 10
FAM 236.7-1 a. (3).

       Shortly after his arrival at the mission in September 2010, the PAO learned of the
Santiago BNC’s noncompliance with grant requirements. He immediately contacted the
Department for guidance and sent two letters to the BNC director, requesting an accounting of
funds spent under the grants and making it clear that no further grants were possible until such an
accounting was provided. The BNC director has not responded, and the PAO is continuing to
consult with the Department on the next steps. In the meantime, the PAO is working with the
well-run and solvent Santo Domingo BNC on its proposed plan to take over the insolvent
Santiago BNC.

Recommendation 13: Embassy Santo Domingo should refrain from providing financial
assistance to the Santiago Binational Center until it gives a full accounting of all funds received
                                                           22
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

under grants provided by the embassy’s public affairs section for the acquisition of library books
and furnishings and the provision of English language training to disadvantaged youths. (Action:
Embassy Santo Domingo)

        In the spring of 2010, the PAS, with funding from the Bureau of Educational and Cultural
Affairs, purchased equipment, including a computer and photocopier, and a collection of
educational advising books for the Santiago BNC. Subsequent revelations by auditors of serious
internal control weaknesses in the management of the BNC caused the then-PAO to withhold the
donation. The equipment and books are still in storage in the Centro Franklin. The longer they
are stored, the more likely they are to become obsolete.

       Informal Recommendation 17: Embassy Santo Domingo should donate the books and
       equipment originally intended for the Santiago Binational Center to an appropriate
       institution.

English Language Teaching

        PAS support for English teaching in the Dominican Republic favors the train-the-trainer
approach. This focus makes sense: In 2007, the Ministry of Education designated four secondary
schools in Santo Domingo as centers of excellence. English language training will be a major
part of these schools’ curricula. In addition, the Ministry of Higher Education recently initiated a
program to provide 10 months of free English language training to thousands of public university
students. Both programs suffer from one serious flaw—a lack of qualified English teachers.
According to PAS LE staff, the English teachers participating in these two programs have
difficulty communicating with them in basic English. It is thus hard to envision them as effective
teachers of English. English teaching also takes place in private schools and at the embassy-
supported Santo Domingo BNC, which provides language training to 17,000 students per year.
As these institutions can offer higher salaries, they are able to attract more qualified English
teachers.

        In the previous 2 years, PAS has hosted a variety of ECA-funded English language
teaching assistants (English-speaking college graduates who do not necessarily have teaching
degrees) and fellows (fully trained English-as-a-second-language teacher trainers). PAS has
requested two English teaching assistants for academic year 2011–2012 but has not requested the
more fully trained English language fellows due in part to problems encountered with the
Ministry of Higher Education, which is responsible for placing fellows in meaningful teacher
training positions. Although working with an overly bureaucratic Ministry of Higher Education
presents challenges, continuing cooperation will benefit the Ministry’s English teaching program
and provide a boost to Embassy Santo Domingo’s efforts to increase its English teaching profile
in the country.




                                                           23
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




                                              24
OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Resource Management

Agency                                                 U.S.          FMA            LE         Total           Funding
                                                      Direct-         &            Staff       Staff           FY 2010
                                                       Hire          EFMs
Department of State - Program                            25              6           12           43            $6,367,528
Department – Haiti Relief Efforts                                                                               $1,000,000
Department – ICASS                                         7             7          124         138             $7,242,800
Department – Diplomatic Security                           3             3            9          15             $1,435,184
Department – Bureau of Overseas                            1                                      1             $2,550,338
Buildings Operations
Department – OBO - New Embassy                             7                                       7            $7,633,660
Department – Public Diplomacy                              3                         16           19            $1,075,986
Department – Public Diplomacy Rep                                                                                   $7,900
Department – Consular Affairs                            31            11            74         116             $1,132,527
Department – Representation                                                                                        $35,000
Department – Narcotics                                    1                           2           3            $15,928,367
Subtotal Department of State                             78            27           237         342            $44,409,290

Department of Agriculture– Foreign                         1                           5            6            $245,499
Agriculture Service
DOA – Animal & Plant Health                                4                           5            9           $2,923,099
Inspection Service
Department of Commerce – Foreign                           2                           8          10             $770,357
Commercial Service
Department of Health & Human Services                      2                           5            7            $540,204
– Center for Disease Control
Department Homeland Security (DHS)                         1                           1            2            $125,893
Citizenship & Immigration Services
DHS – Immigration and Customs                              3                           2            5            $640,958
Enforcement
DHS – Customs & Border Protection                          2                           2            4            $181,589
Container Security
DHS – Customs & Border Protection                          1                                        1            $176,495
Container Security Special Investigations
Defense Intelligence Agency                                                                                       $572,574
Department of Justice – Drug                             14              2             1          17            $1,300,000
Enforcement Admin.
Justice – Federal Bureau of Investigation                  3                                        3            $293,353
Legal Attachés

                                                          25
            OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Agency                                                 U.S.          FMA            LE         Total           Funding
                                                      Direct-         &            Staff       Staff           FY 2010
                                                       Hire          EFMs
Justice – U.S. Marshals                                    2             1                          3            $265,000
Department of Army – Tactical Analysis                     2                                        2              $16,900
Teams
Army – Force Protection Detachment                         2                           1            3              $32,286
Army – Operations and Maintenance
Military Assistance Advisory Group                         6                           2            8          $7,701,600
President’s Emergency Plan for AIDS                        1                           1            2             $56,000
Relief
Peace Corps                                                3                           6            9          $3,250,000
Social Security Administration                                                         5            5            $213,419
Department. of Treasury – Office of                        1                                        1             $233,274
Technical Assistance
U.S. Agency for International                            21                          72           93            $3,493,423
Development
USAID – Programs                                          2                                       2            $49,200,000
Subtotal Other Agencies                                  73              3          116         192            $72,231,923

Total                                                   151            30           353         534            $116,641,213
Source: Embassy Santo Domingo




                                                          26
            OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Management Issues
Management Operations

        A legacy of poor leadership and inadequate oversight has contributed to less than optimal
performance in the management section. At least one past OIG inspection team found similar
vulnerabilities in procurement and property management functions. Until the management
counselor’s arrival, the embassy had made no sustained effort to address these vulnerabilities.
The 2010 management controls statement of assurance from the chief of mission did not list any
weaknesses. Later in this report, the OIG team discusses the information that should be included
in the 2011 management controls statement.

       (b) (5)




       Staffing gaps and budget constraints have undermined any sense of continuity in the
management section. The absence of key American supervisors has contributed to the increased
workload and loss of effective oversight. The demands placed on this mission as a result of the
Haitian earthquake in 2010 added to the stress of an already overworked staff.

        Eight spread-out, poorly configured, and cramped compounds make communication,
coordination, and team building difficult. A new embassy compound is scheduled to be
completed in 2014, bringing all mission offices onto one property. That move will help bring
consistency and oversight to many operations. In addition, the consolidation plans now under
way between the Department and USAID will provide an opportunity for improved
communication, customer service, and management controls.

        The years of neglect cannot be corrected immediately. The management counselor’s top
priority is to improve internal controls. To achieve this, she will need to establish performance
standards and create and maintain proper oversight, monitoring, and accountability. In addition,
she will need the full and active support of the front office. Staff involvement will be crucial, as
will WHA participation, to ensure continuity of management operations during periods of staff
turnover.

Human Resources

       There is no resident human resources (HR) officer at Embassy Santo Domingo. A
regional HR officer, based at the Florida Regional Center (FRC), visits the mission for 1 week
                                               27
                 OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

every 2 months. The management counselor told the OIG team that the length and frequency of
visits by the regional HR officer are insufficient. The management counselor estimates that she
spends 30 percent of her time on personnel-related issues. Embassy personnel do not have a clear
understanding of the role of the regional HR officer. At the time of inspection, the embassy did
not have a signed agreement outlining the roles and responsibilities of the management
counselor, regional HR officer, and LE staff. Embassy personnel are also not certain which HR
functions can be performed remotely.

Recommendation 14: The Florida Regional Center, in coordination with Embassy Santo
Domingo and the Bureau of Western Hemisphere Affairs, should revise its memorandum of
agreement for human resources services and define the roles and responsibilities of the
management counselor, the locally employed staff, and the regional human resources officer for
such issues as hiring, retirements, terminations, local compensation plans, medical and life
insurance contracts, pensions, consolidation of administrative services, supervision of staff, and
the dissemination of technical information to mission staff. (Action: FRC, in coordination with
Embassy Santo Domingo and WHA)

Recommendation 15: The Florida Regional Center, in coordination with Embassy Santo
Domingo, should track and monitor the amount of time the management counselor spends each
month on human resources activities and evaluate whether some of the management counselor’s
human resources duties should be delegated to the regional human resources officer, the locally
employed staff, or the eligible family member human resources assistant, or could be performed
remotely at the Florida Regional Center. (Action: FRC, in coordination with Embassy Santo
Domingo)

        To conduct human resources activities effectively, Embassy Santo Domingo needs either
a resident HR officer or coverage from the FRC that would amount to 50 percent of the regional
HR officer’s time. The FRC is not structured to provide this amount of coverage to one post. The
HR regional officer serving Embassy Santo Domingo covers four posts.

        As a whole, the FRC uses 6 regional HR officers to cover 17 of its 28 embassies and 3
U.S. interest sections, and it plans to increase the number of regional HR officers to 7 in the
summer of 2011. The provision of regional support is a substantial cost savings for WHA over
the placement of an officer at a post.

       The FRC has examined its coverage of regional posts and has proposed a reduction in the
number of posts assigned to each regional HR officer to no more than two. In addition, WHA
and FRC hope to pursue the possibility of remote signing of certain documents, such as
personnel actions and personal services agreements.

Recommendation 16: The Florida Regional Center should evaluate whether its regional human
resources concept is adequate to meet the needs of the embassies and U.S. interest sections
serviced by regional human resources officers and determine whether additional officers, more
frequent visits of longer duration, innovative technology, and other resources are needed to

                                                           28
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

improve the performance of the regional human resources concept. (Action: FRC)

Customer Service

        The HR section received lower-than-average scores on International Cooperative
Administrative Support Services (ICASS) and OIG surveys. Complaints were primarily about
customer service. In OIG interviews, American and LE staff complained about the negative
attitude of some HR employees. LE staff committee members echoed the same complaint. Some
LE staff said that they avoid asking questions of HR employees at all costs. Some HR employees
were defensive when asked about customer service, saying that they are often bombarded with
questions, some of which could easily be researched by customers. They believe that attention to
so many personnel-related questions takes time away from their other duties.

       Informal Recommendation 18: Embassy Santo Domingo should determine what type of
       personnel questions and issues should be sent to the regional human resources officer for
       her action.

       Informal Recommendation 19: Embassy Santo Domingo should set designated hours
       for answering American and locally employed staff personnel-related questions.

       Informal Recommendation 20: Embassy Santo Domingo should include in its new
       employee orientation a session on the most frequently asked personnel questions.

       Informal Recommendation 21: Embassy Santo Domingo should post on its intranet site
       a list of the most frequently asked personnel questions, along with the answers.

       Informal Recommendation 22: Embassy Santo Domingo should include customer
       service as an element in human resources staff position descriptions and performance
       evaluations.

Recommendation 17: The Florida Regional Center, in coordination with Embassy Santo
Domingo, the Bureau of Western Hemisphere Affairs, and the Foreign Service Institute, should
provide customer service training for the human resources staff. (Action: FRC, in coordination
with Embassy Santo Domingo, WHA, and FSI)

Eligible Family Member Evaluations

       In most instances, American and LE staff evaluation reports and work requirements
statements are being completed within the appropriate time frame, but many of the 34 EFM
evaluations were not. The EFMs believe that they are being overlooked, (b) (5)
         Supervisors claim that reminder notices are not sent to them. However, some
supervisors were reminded but still did not prepare evaluations by the required due date. Some
evaluations were still outstanding at the time of the inspection.


                                                           29
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 18: Embassy Santo Domingo, in coordination with the Florida Regional
Center, should follow the same guidelines for preparing, tracking, and sending reminder notices
for eligible family member evaluations as for locally employed staff. (Action: Embassy Santo
Domingo, in coordination with FRC)

Evaluation Reports for Untenured Officers

        Embassy Santo Domingo does not have a process for ensuring that employee evaluation
reports are completed regularly and on time for untenured officers per 3 FAM 2244.2-2 and
telegram 05 State 090741. Normally, the rating period extends 1 year from the date in which the
ELO assumes specific duties at an overseas mission. The rating period may end upon change of
the immediate supervisor. At Embassy Santo Domingo, many of the untenured officers serve in
the consular section on rotational assignments that are less than 1 year in length. When an ELO
rotates from position to position and changes supervisors, an employee evaluation report should
be prepared. An alternative, if the total elapsed period is less than 120 calendar days, is for the
supervisor to prepare a one-page document of performance and submit it to the rating officer for
use in preparing the annual evaluation. Memos of performance may also be submitted to the
Office of Performance Evaluation in the Bureau of Human Resources for inclusion in an
individual’s official personnel folder.

         The ELOs told the OIG team that some of their evaluation reports were from 6 to 9
months late. The OIG team found that the files in the HR office were incomplete. Even when
evaluations and work requirements statements were completed, they were not necessarily being
filed in the individual personnel folders. The OIG team sampled five folders and found
deficiencies in four of them, including three evaluations that were several months late. The
fourth folder had only a work requirements statement dated in 2009. Overall, the lists of ELOs
were not up-to-date, and not all ELOs had folders and work requirements statements.

         The record keeping is complicated by the frequent rotations among officers and the lack
of information about the rotations in the HR office. An individual might have been given an
evaluation for a 6-month period. The HR office might accept that evaluation, which is usually
late, as the evaluation for the entire 12-month period and not request an update or a second
evaluation for the last 6 months of the rating period.

       Evaluations play an important role in determining ELO promotions, which are based
upon satisfactory performance of assigned duties over the prescribed rating period. However, the
major focus of the evaluation process for ELOs should be upon long-term potential, growth
capacity, and adaptability to the discipline and rigors of a Foreign Service career. The absence of
employee evaluation reports hinders this process.

Recommendation 19: Embassy Santo Domingo, in coordination with the Florida Regional
Center, should establish and distribute procedures so that employee evaluation reports are
prepared for entry-level officers as prescribed by Department of State regulations. (Action:
Embassy Santo Domingo, in coordination with FRC)

                                                           30
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 20: Embassy Santo Domingo, in coordination with the Florida Regional
Center, should maintain current lists of entry-level officers, rating officers, and reviewing
officers and should establish a regular schedule for reminding these individuals of their
responsibilities, both with respect to specific individuals and in general. (Action: Embassy Santo
Domingo, in coordination with FRC)

Nepotism

        There is a perception of nepotism within Embassy Santo Domingo that stems from the
fact that 13 percent of LE staff employees are related to one another. In the consular section, 15
percent of LE staff members are related. In addition, there are three EFMs working in the same
office, but in different units, as their spouses. (There are no supervisory relationships among
these family members.) During the hiring process, prospective employees are required to list
relatives who work for the mission. Prospective employees are also asked during the clearance
process to list relatives who work for the mission or for the local government. The embassy has
found no basis for claims of nepotism among American employees, but there is a continuing
concern about the number of LE staff members who have relatives employed by the embassy.
Embassy management knows that these relationships exist, but there are no formal nepotism
reviews or waivers on file. The number of familial relationships is a potential vulnerability and a
morale issue.

Recommendation 21: The Florida Regional Center, in coordination with the Bureau of Human
Resources, should conduct a review to determine whether the percentage of family relationships
in Embassy Santo Domingo sections poses a risk to internal controls and, if so, take corrective
actions as needed. (Action: FRC, in coordination with DGHR)

Local Social Security System

        LE staff members described their most pressing concern as that of retirement benefits.
They are concerned about the adequacy of retirement payments and the viability of the local
social security system (LSSS). They believe that the LSSS is poorly managed and subject to
corruption, that the money is being poorly invested, and that they will lose their money. LE staff
did not provide the OIG team with any documentation for these concerns.

       In countries with high corruption indexes and unreliable pension systems, the Department
allows LE staff to participate in Department-approved offshore retirement programs. To justify a
departure from a host country’s retirement system, an embassy must conduct an assessment to
determine whether the social security retirement system for local staff is adequate and viable.

       Under the LSSS, two criteria must be met to qualify for pensions. The individual must
have 30 years of service and have made contributions equaling 1 million pesos. Annuitants
receive a fixed pension equal to the minimum wage. Others not meeting these criteria receive a
lump sum. At the time of the inspection, retirees did not have medical coverage. Employees told
the OIG team that in the Dominican Republic, it is a common practice for retirees to rely on their
children for medical coverage. Per prevailing practice, local companies allow their employees to
                                                           31
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

claim their parents as beneficiaries. However, retirees who are childless or do not have children
employed in the Dominican Republic are without medical coverage. Clearly, LE staff retirement
benefits are inadequate.

Recommendation 22: The Florida Regional Center, in coordination with Embassy Santo
Domingo and the Bureau of Human Resources, should gather and review required
documentation on the Dominican Republic social security system and make a determination
regarding the eligibility of Embassy Santo Domingo’s locally employed staff to participate in the
Department of State’s defined contribution plan or a supplemental retirement plan. (Action:
FRC, in coordination with Embassy Santo Domingo and DGHR)

       Informal Recommendation 23: Embassy Santo Domingo should conduct an annual
       retirement seminar for locally employed staff that includes information about the local
       social security system, medical insurance benefits, financial planning, and independent
       supplemental retirement plans.

CaribAlico Pension Plan and Local Social Security

        In 2003, the Government of the Dominican Republic initiated the LSSS. In 2005, the
private company in which LE staff pension funds were invested went bankrupt. In 2007, the
embassy undertook the task of ensuring that LE staff members were properly enrolled in the
LSSS and that employees had not lost any funds due to the bankruptcy of CaribAlico. The U.S.
Government ―m   ade whole‖ all funds that LE staff had invested in the bankrupt CaribAlico
pension plan, plus any interest that might have been earned in the interim time periods.

        The OIG team reviewed the calculations of the settlements and determined that the U.S.
Government had taken the necessary steps to ensure that employees were treated fairly. The
mission gave employees cash settlements based on their accrued CaribAlico retirement benefits,
less the value of employee and employer contributions (made retroactively) to the LSSS for U.S.
Government service from June 2003 through December 2005. The value of the cash settlement
was increased at an annual rate of interest of 12 percent for the time period from December 2005
through May 2007. For those employees with less than 5 years of service in 2007, the value of
the accrued CaribAlico retirement benefits was often less than the value of employee and
employer contributions that would have been made to LSSS. In those cases, the employee
received the total amount that had been paid into CaribAlico, including interest, without
subtracting the value of the LSSS payments. Employees were free to do as they wished with the
settlements. Those employees who did not save or invest the money are among those who are
most concerned now about the deficiencies in the LSSS.

        There is still lingering discontent among LE staff members about the settlements, and
they described to the OIG team what they characterized as ―s  cars‖ in their relations with the
mission. LE staff members indicated that they had received only the value of their employee
contributions, not the value of the funds contributed by the U.S. Government. They also reported
that they were forced to sign a statement releasing the U.S. Government from any liability or
obligation related to the pension plan. The OIG team, as noted previously, reviewed the
                                                           32
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

calculations and found them to be generous and thorough. The OIG team does not believe that
any employee lost funds through the transaction and that employees with less tenure had, in fact,
profited from it. Because of the continuing misunderstanding and confusion regarding the matter,
the OIG team suggested that the embassy reissue the memorandum from 2007 that explained the
process, which the embassy did on March 23, 2011.

Financial Management

       The financial management section is well run by an experienced FMO who has improved
operations and instituted cross-training. These changes have strengthened management controls
and have revealed some staff performance weaknesses.

        The financial management unit is understaffed by one voucher examiner position. In FY
2010, to keep up with demand, LE staff worked overtime hours costing over $16,000. Voucher
examiners in Santo Domingo processed an average of 27,032 vouchers. The unit’s workload per
voucher examiner far exceeds other large missions such as Beijing, Brasilia, London, Mexico
City, and Rome. These embassies are, presumably, better funded and staffed. Santo Domingo’s
voucher work load ratio is also higher than the worldwide average of 2,006.

        The OIG team discussed with Embassy Santo Domingo the possibility of outsourcing the
travel voucher processing. It is more cost effective for the Department’s Financial Service
Centers’ post support units to perform this function. For a post support unit, processing an
estimated 1,200 to 1,500 travel vouchers annually would cost between $14,000 and $18,000. The
other option would be for the embassy to hire another voucher examiner at a cost of about
$21,000.

Recommendation 23: Embassy Santo Domingo should outsource its travel advance and
voucher payment function to the Department of State’s Financial Service Centers’ post support
units. (Action: Embassy Santo Domingo)

         The collection of money to pay for personal long distance telephone charges is not cost
effective. One voucher examiner spends approximately 25 percent of his or her time on this task.
In FY 2010, the unit spent approximately $5,000 to collect personal long distance cellular
telephone calls totaling $5,900. This does not include the cashier’s time used to collect
reimbursements. There has also been some abuse. Some employees have amassed bills ranging
from $500 to $2,000. In addition, personal long distance calls are prohibited by 5 FAM 523.1,
except under the limited personal emergency provision of 5 FAM 523.1 c. Department
regulations 5 FAM 511 and 5 FAM 522 allow for the limited use of government
telecommunications for personal reasons. Personal calls are acceptable as long as they do not
result in additional charges to the U.S. Government and do not interfere with an employee’s
work responsibilities.

Recommendation 24: Embassy Santo Domingo should prohibit the use of official cellular
telephones and land lines for personal long distance calls and should issue a telephone usage

                                                           33
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

policy that outlines the permitted exceptions for usage of official cellular telephones and land
lines. (Action: Embassy Santo Domingo)

Cashiering

        Monthly unannounced cash counts are one of the main management controls used to
detect errors and prevent theft. In Santo Domingo, the FMO has instituted another control that
not only enhances the performance of staff but also adds another layer of protection. The
alternate cashier is required to perform cashiering duties quarterly for a 1-month period, during
which the alternate cashier is responsible for the imprest fund. This practice allows the alternate
cashier to retain her cashiering skills. It also relieves the primary cashier of her duties and allows
the alternate cashier to reconcile the imprest fund every 3 months. This type of cross-training
exercise might help prevent cashier thefts.

Recommendation 25: The Bureau of Resource Management should review the practice of
allowing the alternate cashier to take custody of the imprest fund for a set period one or more
times a year and determine whether it should become part of standard cashiering operating
procedures. (Action: RM)

General Services Office

         The embassy has three U.S. direct-hire general services office (GSO) positions and one
facilities maintenance officer. There are 82 LE staff members in the section. The GSO section
has not had full American staffing for 18 of the past 24 months. In the absence of American
supervision, senior LE staff members have provided continuity and day-to-day direction of the
various units. However, the quality of services and the internal controls have degraded during
that same period.

Procurement and Contracting

        The procurement unit, which has four LE staff positions but is currently short one clerk,
has not had consistent American supervision. In 2010 the unit processed 4,000 procurement
requests worth approximately $7 million and 20 contracts/modifications valued at $5.6 million.
With one vacancy, the procurement staff is forced to work weekends to keep up. The unit
services all agencies at the mission except USAID and Peace Corps. USAID is consolidating
services with the embassy this year.

    Embassy Santo Domingo has a number of blanket purchase agreements (BPA) for motor
vehicle, air conditioning, generator maintenance, and hardware supplies. There is no indication
that American supervisors provide effective oversight of either the work performed or the
supplies procured. LE staff members do not follow proper receiving procedures for goods and
services procured with BPAs. These receiving functions should be the same as those for goods
ordered through other arrangements.


                                                           34
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       The ARIBA off-the-shelf procurement tracking software, as currently configured, is
undermining management oversight. Procurement actions are initiated by LE staff, but they
should be approved at an early stage by an American officer who is familiar with the details of
the purchase request and whose approval indicates his/her agreement with the need for the
procurement action. At present, the certification and approval steps are performed at the end of
the ARIBA process. The absence of American engagement in validating the need for the
procurement action represents a major vulnerability.

Recommendation 26: Embassy Santo Domingo should establish a review process aimed at
validating work performed and supplies received for the maintenance of residences and motor
vehicles. (Action: Embassy Santo Domingo)

        The ARIBA software adds to the workload of all elements of the mission. The software is
not responsive to the needs of either the FMO or the GSO. The various agencies within the
mission using the system have all expressed frustration over the added workload imposed. The
FMO outlined a few of the difficulties encountered:

      Procurement certifications and approval are performed at the end of the procurement
       process rather than at the beginning.

      The system does not allow amendments to correct currency fluctuations. The embassy’s
       work-around does not properly document these corrections and bypasses formal review
       by the FMO. The user should enter a new purchase request when currency fluctuations
       occur.

      The amount remaining under a bulk-funded BPA is displayed only for the procurement
       section and the contracting officer. The BPA drawdown report that presents the BPA’s
       available balance requires user access and generation.

      If the amount of the new transaction under the existing BPA exceeds the available
       balance, ARIBA does not halt the purchase request and the shortfall is brought to the
       attention of the procurement section only at the final step of the process.

      The entry of a transaction under a BPA into ARIBA requires just as much work as the
       entry of a standard purchase request. This level of effort negates the effectiveness of
       using a BPA, which is intended to lessen the work required to make small, frequent
       purchases.

      There is no ability to enter multiple funding sources for a BPA. For example, purchases
       for supplies intended for general use should be billed to ICASS, program, and other
       budgets, but this cannot be done in ARIBA.




                                                           35
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

      Bulk funding requires numerous adjustments. The bulk-funded obligation is deobligated
       and charges are made to the appropriate sub-object, function, and/or project codes
       necessary to maintain proper expenditure tracking.

Recommendation 27: The Bureau of Administration should review the performance of the
ARIBA software and address its shortcomings to improve internal controls and increase
efficiency. (Action: A)

Property Management

       With a staff of 17, the property management section oversees an inventory worth
approximately $9 million. Inventory shortages are low—approximately 0.36 percent. The
embassy has instituted management controls and holds quarterly sales of excess property. The
warehouse is overcrowded, but an upcoming sale will permit the staff to improve allocation and
demarcation of space in the facility. The receiving area adjacent to the warehouse is
overcrowded due to the backlog in the pickup of items received.

Recommendation 28: Embassy Santo Domingo should require all agencies to take delivery of
goods from the receiving office within 3 days. If this does not occur, the receiving office should
process the items and place them in the warehouse. (Action: Embassy Santo Domingo)

       Informal Recommendation 24: Embassy Santo Domingo should store the
       nonexpendable property of various agencies in clearly marked areas in the warehouse.

       Informal Recommendation 25: Embassy Santo Domingo should investigate the
       possibility of using a local bank to accept payments during warehouse sales.

Housing

       The OIG team found management oversight of the housing function to be ineffective.
Rental figures for U. S. Government leases provide ample basis for concern. In 2010, the
embassy staff signed leases for 20 new housing units. The lease costs were remarkably uniform,
and the OIG team could find no indication that the American supervisor had been engaged in the
negotiations. OBO has recommended that Embassy Santo Domingo retire residences in high-rise
apartment buildings and identify replacement residences that meet OBO seismic guidelines,
preferably single-family residences and low-rise apartment buildings (10 STATE 106839).

        In early 2011, the acting director of OBO approved the build-to-lease process for a 75-
unit housing compound to be located near the new embassy compound. As part of this process,
OBO announced in the spring of 2011 that it would solicit a proposal from the developers for the
project and would initiate negotiations.

       Newly assigned personnel complain about long delays, as much as 10 weeks or more, to
complete upgrades to newly leased residences. In the meantime, the embassy has often placed
newly arrived families in hotels, often costing their agencies more than $18,000.
                                                           36
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 29: Embassy Santo Domingo should require the American employee who is
responsible for the housing section of the general services office to take part in lease negotiations
so that the U.S. Government receives a fair value. (Action: Embassy Santo Domingo)

       Prior to arrival, employees are provided a six-page welcome notice that is overly detailed,
with important information about housing options, availability, and the assignments process
buried within its text. As a result, new employees are often surprised by or dissatisfied with their
housing and respond by submitting waivers or requests for housing transfers. In addition, the
information that the embassy provides to new employees does not clearly outline their
responsibilities with regard to the upkeep of their residences, which leads to confrontation with
employees during the check-out process at the end of their tours.

Recommendation 30: Embassy Santo Domingo should review its standard communications
with newly assigned personnel so that the basis for housing assignments and the availability of
housing are clearly outlined. (Action: Embassy Santo Domingo)

Recommendation 31: Embassy Santo Domingo should create a document explaining in detail
the check-out procedure, employee responsibilities for damages, and the definition for normal
wear and tear and require employees to sign the document upon arrival, indicating that they
understand the policy. (Action: Embassy Santo Domingo)

       The OIG team discovered that the USAID director’s residence is not listed on OBO’s
inventory. The Department is the only agency authorized by Congress to own properties
overseas.

Recommendation 32: The Bureau of Overseas Buildings Operations should include the director
of the U.S. Agency for International Development’s residence in its U.S. Government-owned
inventory. (Action: OBO)

       The 10-year lease for the Marine Security Guard residence is due for renewal and
requires action. Security issues raised by the regional security officer in connection with this
property are addressed in the classified annex of this report.

Recommendation 33: Embassy Santo Domingo, in coordination with the Bureau of Overseas
Buildings Operations, should conclude negotiations to extend the current lease of the Marine
Security Guard residence. (Action: Embassy Santo Domingo, in coordination with OBO)

Facilities Maintenance

        The facilities maintenance section performs minor maintenance and repairs requiring
urgent attention through eServices work orders. The OIG team received a number of complaints
from employees regarding poorly supervised maintenance workers, including both LE staff and
contractors. The maintenance employees procure and receive goods and services through BPAs
without oversight by an American officer. Furthermore, the OIG team could find no evidence
that anyone but the occupant of a residence ever verifies that the work is performed. This lack of
                                                           37
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

property oversight and execution of proper procurement, receiving, and follow-up procedures not
only compromises customer service, it also constitutes a financial vulnerability for the U.S.
Government in the form of unnecessary or excessive expenditures.

Recommendation 34: Embassy Santo Domingo should establish a facilities maintenance review
process to facilitate the satisfactory completion of work orders. (Action: Embassy Santo
Domingo)

Recommendation 35: Embassy Santo Domingo should establish a procedure so that all
equipment and supplies procured under blanket purchase agreements are received and
inventoried before being allocated to the maintenance staff. (Action: Embassy Santo Domingo)

       The embassy maintenance operation, directed by the facilities maintenance officer, shares
responsibility with the various landlords for maintenance of the short-term leased properties.
Maintenance staff members receive an average of 500 work orders per month and 3 to 5
emergency calls per week. Either the landlord does the major work or the facilities staff members
perform the work and charge the cost to the lease contract. Although the housing office
coordinates communication with the landlords, a senior locally employed supervisor does not
check the quality of service and cost accounting for services provided under BPAs. As a result,
residences are often not ready for incoming personnel, who must then be placed in hotels at
considerable cost to the U.S. Government.
Recommendation 36: Embassy Santo Domingo should establish a procedure that requires the
facilities maintenance officer to authorize services provided under a blanket purchase agreement
before they are entered into ARIBA. (Action: Embassy Santo Domingo)

Recommendation 37: Embassy Santo Domingo should establish a policy whereby a senior
locally employed staff supervisor reviews make-ready work and checks that work is performed
properly by either the landlord or embassy contractors and that the residential units are ready for
incoming personnel. (Action: Embassy Santo Domingo)

         PAS is located in a dilapidated facility with major electrical problems. Recently, that
facility suffered a significant power surge and equipment was damaged beyond repair. Continued
use of the current facility in its present condition represents a threat to the safety of the personnel
employed there, and the embassy needs to take immediate corrective action.

Recommendation 38: Embassy Santo Domingo, in coordination with the Bureau of Overseas
Buildings Operations, should obtain funding and contract for the immediate rewiring and
grounding of the public affairs facility. (Action: Embassy Santo Domingo, in coordination with
OBO)

Safety, Health, and Environmental Management

       The embassy’s fire and safety program lacks rigorous oversight. The OIG team found
shortcomings in every aspect of the current program that not only jeopardize the safety of
                                                           38
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

employees but, in one instance, increase the potential for malfeasance in an already high-fraud
environment. Residential fire extinguishers are not routinely checked and refilled. Emergency
shutoff systems for the fuel pumps and the cafeteria butane tanks were not properly identified
and labeled; there was no mechanism to monitor the access, use, and safety of the embassy’s
gasoline pump; and there was no sink or wash-down area adjacent to the diesel pump for cleanup
after refueling. There were missing smoke alarms and insufficient fire extinguishers in the chief
of mission residence, and the public diplomacy offices were improperly wired and grounded.
Also of concern was the lack of a secondary egress from the warehouse ground floor and the
need for additional smoke alarms and fire extinguishers in both the warehouse and the receiving
area. The age and deterioration of embassy buildings further contributes to the vulnerability of
the employees working in these facilities.

        While exhibiting a desire to address these shortcomings, the facilities maintenance
officer, who is the designated post occupational safety and health officer, also needs to establish
a more disciplined approach to fire and life safety. The following recommendations should be
addressed on an urgent basis.

Recommendation 39: Embassy Santo Domingo should establish and implement a procedure to
tag all residential fire extinguishers on an annual basis and to check that all smoke alarms are
functioning properly. (Action: Embassy Santo Domingo)

Recommendation 40: Embassy Santo Domingo should properly mark the emergency shutoff
systems and post instructions for the butane tanks, the gasoline pump, and the diesel pump.
Embassy Santo Domingo should also locate appropriate firefighting equipment nearby. (Action:
Embassy Santo Domingo)

Recommendation 41: Embassy Santo Domingo should install a camera and recording device to
monitor access to and use of the embassy gasoline pump. (Action: Embassy Santo Domingo)

Recommendation 42: Embassy Santo Domingo should install appropriate personnel cleanup
facilities adjacent to the diesel pump. (Action: Embassy Santo Domingo)

Recommendation 43: Embassy Santo Domingo should create a secondary emergency egress
from the ground floor of the warehouse. (Action: Embassy Santo Domingo)

Recommendation 44: Embassy Santo Domingo should install smoke alarms and fire
extinguishers in areas not currently covered in both the warehouse and the receiving facility.
(Action: Embassy Santo Domingo)

Motor Pool

       The embassy motor pool outsources vehicle maintenance to three commercial garages.
Motor pool supervisors do not mandate a review of what maintenance is performed or whether it
is needed. There is no mechanism in place to prevent garages from making unnecessary repairs,

                                                           39
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

overcharging, installing used or faulty materials and parts, or not doing the work for which they
charge.

Recommendation 45: Embassy Santo Domingo should establish written procedures that require
motor pool staff to perform spot checks of garage repairs so that repairs are made correctly and
that new parts are used. (Action: Embassy Santo Domingo)

        Driving in Santo Domingo is hazardous. Traffic accidents are a routine occurrence.
Embassy vehicles are involved in an average of two to three serious, costly accidents per month.
Despite this average, the embassy has no formal review process for determining responsibility
for accidents involving official vehicles. In addition, the embassy does not require the use of seat
belt restraints.

Recommendation 46: Embassy Santo Domingo should institute a formal review process for
determining responsibility for traffic accidents involving official vehicles. (Action: Embassy
Santo Domingo)

Recommendation 47: Embassy Santo Domingo should establish a policy that requires all
passengers riding in mission vehicles to fasten their seat belts and all motor pool drivers to
enforce this policy. (Action: Embassy Santo Domingo)

       The motor pool is not properly completing vehicle utilization logs. In addition, the motor
pool supervisor does not review gasoline consumption. The records show that vehicles with less
than 60,000 miles are getting approximately 6 to 9 miles per gallon of gasoline in the city. This
low mileage rate is not readily explainable, and with the cost of gasoline at $6 per gallon, it is
also expensive. The Department requires that mileage and fuel usage of official vehicles be
monitored (14 FAM 436.1 and 436.2 b.).

Recommendation 48: Embassy Santo Domingo should create a monthly report that tracks
mileage per gallon, maintenance history, and vehicle age and implement procedures for the
general services officer to regularly review this report for discrepancies. (Action: Embassy Santo
Domingo)

Recommendation 49: Embassy Santo Domingo should establish and implement procedures
requiring drivers to complete mileage logs and obtain signatures from passengers. The
procedures should include a requirement that the general services officer regularly spot check
logs for accuracy. (Action: Embassy Santo Domingo)

Consolidation of Department of State and U.S. Agency for International Development
Services

       USAID and the Department have had active discussions for several years about the
consolidation of some services. Working with the USAID executive officer, the management
counselor has initiated an aggressive strategy to restructure the ICASS service platform that,
when completed, should improve services and reduce costs by approximately $150,000 during
                                                           40
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

the first year. In 2007, in anticipation of consolidation, the embassy eliminated 18 GSO
positions, primarily in the maintenance area. Unfortunately, the untimely departure of the former
management counselor put plans for consolidation of services on hold until the arrival of the
incumbent. The two agencies are now determined to consolidate all administrative services by no
later than October 2011.

       The agreed upon time line for consolidation envisions the merger of housing,
maintenance, and warehousing by April 2011. This step will be accompanied by a restructuring
of ICASS cost centers and concurrence by the ICASS council of the new structure and standards.

       The second phase of the plan foresees consolidation of the two agencies’ motor pools
(June 2011). The final phase will involve procurement and LE staff and EFM recruitment
(October 2011). USAID will continue to perform contracting in support of its program activities.

        This consolidation plan involves the transfer to the Department of most USAID LE staff
involved in these functions. USAID and the Department have developed a very deliberate set of
goals involving training of USAID staff in Department systems, reallocation of financial support,
and transfer of equipment and leases to the Department.

Information Management and Information Security

        Embassy Santo Domingo’s information management program has been hampered by
inadequacies in management and oversight. Coordination of internal controls continues to plague
the information management program, as previously identified in the 2005 OIG inspection
report. The information management program continues to function despite constant staffing
turnover in the Information Systems Center (ISC) operation. Problematic initiatives and poor
leadership by the information systems officer (ISO) have led to vast amounts of waste and
mismanagement. Repeated failures in oversight by the previous information management officer
have voided accountability in key areas of operational necessity, (b) (5)

       Information management program operations are managed from the main chancery
building that houses both the Information Program Center and ISC systems staff. The section
provides support to operations that are spread over several off-site locations throughout the city.
These locations include the consular building, joint administrative office compound, GSO
compound, USAID building, public diplomacy offices, and Foreign Commercial Service
building, in addition to two consular agencies located in Punta Cana and Puerto Plata.

       The OIG team identified several areas that require immediate attention. These include
management of the mission’s ISC, Dedicated Internet Network (DIN), laptop program, and mail
operations. Information security issues are covered in the classified annex of this report.

Information Systems Center

       ISC operations have been hampered by ineffective management and leadership, (b) (5)
                                       During the course of the inspection, an additional key
                                                           41
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

member of the consular systems staff resigned due to lack of oversight and support from
management. This vacancy will further hamper an already stretched staff for the considerable
amount of time necessary to hire and train a systems administrator.

Projects and Planning

        Embassy Santo Domingo has implemented a number of projects of questionable result
and utility. Many of these projects were initiated by the ISO without the knowledge and
coordination of ISC staff. In one instance, a system called ―IPatch‖ was approved by the local
information technology change control board and was installed in the main chancery. A number
of users have questioned the purpose of the IPatch system. Initially, it was presented and
endorsed by the ISO as an enhancement of the mission’s cyber security program, in addition to
various other benefits. The information systems security officer does not use the system for any
operational duties. The contractor had presented the system as one that would reduce operational
costs. However, the system has not only increased operational costs but also hindered ISC
operations on multiple levels. The project was mismanaged, and despite the fact that the
contractor was paid to install the system, ISC staff was forced to assist with portions of it.

        The section recently implemented a cabling initiative, requiring the complete rewiring of
the mission’s large infrastructure. During the course of the past 2 years, several annexes were
rewired with high-speed category 6 cabling. The ISO procured the cabling against the advice of
the staff, who thought the project was not needed and that it showed poor decision making on the
part of the ISO. The ISO did not take into account the technical capabilities of the mission’s
network nor the projected move to the new embassy compound. The OIG team learned that the
mission is the only one in the world to have an infrastructure of category 6 cabling. The project
was a major initiative of the ISO and was supported by the previous information management
officer, despite repeated objections from systems staff. Implementation of this project was also
less than successful, causing a number of operational disruptions in addition to other issues. The
classified annex contains details regarding this matter.

Helpdesk Operations

        ISC is struggling to meet the mission’s helpdesk needs. The challenge is due in part to the
complexity of servicing a network spread out over eight annexes. Staffing turnovers have further
hindered operations. ISC operations are based in a small office in the main chancery. ISC staff
members have tried to coordinate trouble calls in accordance with priority but are hampered by a
lack of personnel. The OIG team observed several instances in which the ISC office was empty
and customer calls could not be answered. ISC should implement a mission-wide procedure
detailing how to leave messages or contact staff in an emergency so that issues do not go
unaddressed.

       Informal Recommendation 26: Embassy Santo Domingo should create and distribute
       mission-wide a procedure for answering customer requests or taking messages when staff
       members are not present in the Information Systems Center due to operational
       requirements.
                                                           42
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Dedicated Internet Network Management

         Embassy Santo Domingo has multiple DINs throughout the compound. However, the
mission does not have records for each DIN. There are also no standard operating procedures for
maintaining the networks or clear justifications for some of the networks. The establishment of a
DIN must be based on a clear need that cannot be met by the unclassified network. The
justification and network information must be submitted to the Department’s Information
Technology Change Control Board for approval. If not appropriately managed and justified,
DINs divert resources from management of the Department’s OpenNet.(b) (5)

                                                   The mission’s information security systems
officer was not aware of the on-site locations of the DINs. Information management staff
members recognize the deficiency in DIN management and have started to inventory and
consolidate the networks and to implement controls to secure them as outlined in 5 FAM 872.

Recommendation 50: Embassy Santo Domingo should inventory and consolidate all Dedicated
Internet Networks and resister them with the Bureau of Information Resource Management.
(Action: Embassy Santo Domingo)

Recommendation 51: Embassy Santo Domingo should establish and document standard
operating procedures for Dedicated Internet Network management. (Action: Embassy Santo
Domingo)

Encrypted Laptops

        The OIG team found vulnerabilities in the mission’s laptop program. The OIG team
identified two laptops that were not included on the mission’s laptop inventory, one of which
lacked the mandated security encryption (June 2010 State cable 57406). Furthermore, several
laptops in the consular section had the encryption keys (with user names and passwords) taped
directly on the equipment. Insecure passwords defeat the purpose of installing laptops with
encrypted software in the first place. The OIG team found evidence that the same vulnerability
was previously associated with a number of the laptops in the ISC inventory. Information
management staff has acknowledged these deficiencies and has removed the user names and
passwords from all of their laptops.

Recommendation 52: Embassy Santo Domingo should conduct an inventory of the mission’s
laptop computers. (Action: Embassy Santo Domingo)

Recommendation 53: Embassy Santo Domingo should establish and implement a procedure for
appropriately encrypting Department of State laptops in order to safeguard the security and
integrity of the data stored on them. (Action: Embassy Santo Domingo)




                                                           43
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Telephone Operators

        About 85 percent of the telephone calls received by Embassy Santo Domingo’s telephone
operators are consular related. The telephone operators direct callers to the consulate Web site
and other online sources of consular information. Although the telephone operators are not
trained in consular affairs, they have learned how to respond to some questions. The embassy
should review the types of calls that the telephone operators receive and answer and determine
whether this is the best way to handle these calls. The volume of consular-related calls may be
significant enough to consider having consular personnel handle them.

       Informal Recommendation 27: Embassy Santo Domingo should review the mission’s
       telephone operator program and explore possible alternatives for handling the volume of
       consular-related calls.

Cellular Telephone Accountability

        The cellular telephone program at Embassy Santo Domingo has limited internal controls.
The financial management section has requested additional capabilities to provide accountability
for personal calls that are being handled by staff. The financial management section stated that
the mission used to have internal controls on billing for cellular telephones and office land lines.
The OIG team conducted a review of the cellular telephone records and billing and identified
multiple accounts unpaid by American staff. Furthermore, several of the accounts were approved
by American supervisors without the required review by the employee. Several of the accounts
had accumulated substantial fees for usages that had not been paid. This issue is further
addressed in the Financial Management section of the report.

       Informal Recommendation 28: Embassy Santo Domingo should establish and
       implement controls on billing for the cellular telephone program.

System Backup Media

        During the course of the inspection, the OIG team found multiple server backup tapes.
The backup tapes contain old data that can be sensitive due to the type of information stored in
them. The information systems security officer is aware of the need to dispose of the backup
tapes properly according to 12 FAM 629.6.

       Informal Recommendation 29: Embassy Santo Domingo should properly dispose of all
       old server backup tapes according to Department of State standards.

Diplomatic Pouch and Mailroom Operation

         Embassy Santo Domingo manages an active mail and diplomatic pouch operation.
During the course of the inspection, the information programs staff issued a mission-wide
notification that mail and pouch services would be limited due to the lack of tarmac access. As a
result, the mission was required to cancel an operational pouch shipment. The IPC staff has been
                                                           44
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

unable to renew the airport badges required for tarmac access. This lack of necessary credentials
threatens all incoming mail and pouch deliveries. The OIG team learned that the same badge
issue occurred at the mission last year as well.

Recommendation 54: Embassy Santo Domingo should create and implement a procedure for
renewing all airport tarmac credentials necessary for receipt of mail and pouch deliveries.
(Action: Embassy Santo Domingo)




                                                           45
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




                                              46
OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Quality of Life
Health Unit Operations

        Embassy Santo Domingo has a well-staffed health unit that serves some 280 American
employees and family members. The unit averages approximately 90 adult patient visits per
month, with approximately 23 pediatric visits and 17 LE staff visits each month. American
employees gave the health unit good scores on the OIG questionnaires (about 4 on a 5-point
scale). The health unit space includes a pharmacy operated by an outside pharmaceutical
contractor at no cost to the embassy.

      The health unit is storing medical supplies and controlled substances according to
Department guidelines. It is also performing annual inspections of the cafeteria operated by the
employee association.

        Although the health unit was maintaining current patient medical records in locked
cabinets, it was not appropriately securing the medical records of those individuals who had left
the mission. In unlocked cabinets in the pharmacy area of the health unit, the OIG team found
unorganized assortments of medical records of persons who had left Santo Domingo. Retired
medical records were also being stored in an unlocked closet in a regional security office
working area (the area itself is secured by a cipher lock), but the room was too cluttered to find
them. Department guidance is that employee medical files are to be maintained at the mission for
6 years, except in the case of minors. Medical records for minors should be maintained for 6
years beyond the age they attain majority (i.e., age 18). During the inspection, the health unit
placed all retired records in the same cabinets and installed locks.

Community Liaison Office

        The community liaison office (CLO) at Embassy Santo Domingo has one CLO
coordinator and an LE staff assistant. The CLO coordinator regularly attends a number of
embassy meetings and has monthly meetings with the DCM. She is scheduled to attend CLO
training in late March 2011, following the OIG inspection. The CLO coordinator has a Secret
clearance; her Top Secret clearance is still pending.

        The family member employment program at Embassy Santo Domingo includes 29 family
members who are now working, with approximately 6 individuals still looking for work. Two
other family members are employed at a local school, one at a local business, and another as a
tutor to school children.

American Embassy Recreation Association

       The American Embassy Recreation Association (AERA) operates a small gift and
alcohol shop on the embassy grounds, as well as a cafeteria (Rincon Verde) and a snack bar in
the consulate. AERA also handles the charges for gasoline purchased by U.S. employees from
the GSO gasoline tanks on the chancery compound. In addition, AERA receives income from a
                                              47
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

photographer operating in the consulate and from the sale of U.S. postage stamps. The income
generated by AERA is used to fund an embassy softball team, as well as various CLO and
embassy activities.

       Neither the licensing agreement between AERA and Embassy Santo Domingo nor the
AERA charter was up-to-date when the OIG team arrived in Santo Domingo. However, AERA
acted quickly to update the licensing agreement and contacted the Office of Commissary and
Recreation Affairs regarding the charter, which requires signatures from Department officials.
The board updated the charter and sent it to the Department for approval.

       The OIG team found that a number of individuals were behind in making payments to
AERA for gasoline and alcohol purchases. Of the $18,000 in outstanding payments due to
AERA, about 45 percent had been owed for more than 60 days. The board took immediate action
to reduce the overdue amounts and within several weeks had successfully cleared all accounts
over 60 days old.




                                                          48
            OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Management Controls
        The 1999 OIG inspection report for Embassy Santo Domingo noted that ―executive office
oversight of the administrative section has been less than required in this complex mission.‖ The
report went on to say that ―administrative support services are not up to Department standards,
and should be improved.‖ The OIG team found that although support services were functioning
adequately, internal controls procedures were exceedingly lax. In the chargé d’affaires’ statement
regarding management controls dated July 2010, he did not indicate any areas needing
improvement. The statement also indicated that measures taken by the embassy provided
reasonable assurance that management control objectives were being achieved. The OIG team
did not find that to be the case.

         The embassy must address vulnerabilities in housing, maintenance, and contracting.
Although some of these issues were identified in past inspection reports, neither Embassy Santo
Domingo nor WHA has taken effective corrective action. There are numerous contributing
factors—untimely staffing gaps, a disjointed embassy complex composed of eight separate
facilities, and an emphasis on controls managed by software systems rather than human
oversight. The result, for better or worse, is that management of key areas of administrative
support has been controlled by LE staff.

        American supervisors should be actively involved in determining significant maintenance
actions, authorizing procurement, overseeing quality control, negotiating leases, and managing
day-to-day activities rather than simply inputting information in automated systems and
responding to emails.

       Financial management is one area in which improvements have taken place, and they are
due almost entirely to the leadership and direction of the newly arrived FMO.

       The newly arrived management counselor is aware of many of these issues and has begun
to address them systematically. A mission-wide evaluation of management controls, as detailed
in 2 FAM 023.1, is needed to assist in this effort. The OIG team estimates that with enhanced
oversight and leadership, Embassy Santo Domingo should be able to save in excess of $135,000
per year in lease costs through better negotiation and $23,000 in maintenance costs by
eliminating duplicative and wasteful procurement.

Recommendation 55: Embassy Santo Domingo should address in its 2011 chief of mission
statement all the significant weaknesses in management controls identified in this report, along
with the steps the embassy has taken to resolve those vulnerabilities. (Action: Embassy Santo
Domingo)

Recommendation 56: Embassy Santo Domingo should conduct an embassy-wide management
controls review as described in Department of State regulations. (Action: Embassy Santo
Domingo)


                                                           49
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 57: Embassy Santo Domingo should enroll all personnel with management
control responsibilities in the Foreign Service Institute PA-164 distance learning Management
Controls course. (Action: Embassy Santo Domingo)

        A review of accountability in the consular section in Santo Domingo showed that
required controls are in place. The only recent fiscal irregularity occurred during the February
2011 visit to Santiago, when the back-up consular cashier from Santo Domingo took the money
in place of the cashier from the consular agency in Puerto Plata, who was on leave. The written
record of the resolution of that irregularity was not complete. Considering the Dominican fraud
and corruption environment, the consular section must be especially careful to investigate and
fully document all fiscal irregularities immediately.

       Informal Recommendation 30: Embassy Santo Domingo should require that the
       consular section immediately document and resolve all fiscal irregularities and keep all
       associated documentation in the accountable consular officers’ files.

         The consular section works a 40-hour week that ends at 11:30 a.m. on Fridays. The
accounting for the cash on Fridays had been delayed until the following Monday, when an
armored car picked up the money for both days, and the FMO issued the appropriate OF-158
receipts. The Consular Management Handbook, 7 FAH-1 H-771.2-5 (End-of-Day Procedures),
states that fees must be delivered to the Class B cashier daily. This same regulation also prohibits
retaining fees in the consular cashier’s possession overnight. In the month of February, the
amounts that were kept by the consular cashier over the weekend averaged $7,500, which
constitutes an unacceptable vulnerability.

Recommendation 58: Embassy Santo Domingo should deliver the consular fees and reports
each Friday to the embassy Class B cashier before the end of the cashier’s business day. (Action:
Embassy Santo Domingo)




                                                           50
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

List of Recommendations
Recommendation 1: Embassy Santo Domingo should establish and implement procedures so
that the deputy chief of mission, with the support of the Ambassador, assists with and exercises
close oversight of actions taken to correct the security and management deficiencies identified in
this report and its classified annex. (Action: Embassy Santo Domingo)

Recommendation 2: Embassy Santo Domingo should create a central contact database and use
it as the exclusive source of guest lists for medium and large events. (Action: Embassy Santo
Domingo)

Recommendation 3: Embassy Santo Domingo should establish and implement a written
mission policy governing the use of cables, record emails, and working emails. (Action:
Embassy Santo Domingo)

Recommendation 4: Embassy Santo Domingo should establish and implement a Foreign
Assistance Vetting standard operating procedure that effectively screens candidates for U.S.
Government-funded assistance. (Action: Embassy Santo Domingo)

Recommendation 5: Embassy Santo Domingo, in coordination with the Bureau of Western
Hemisphere Affairs and the Bureau of International Narcotics and Law Enforcement Affairs,
should review the mix of direct-hire and contract personnel in the narcotics affairs section
program and, if justified, request an additional direct-hire position. (Action: Embassy Santo
Domingo, in coordination with WHA and INL)

Recommendation 6: The Bureau of International Narcotics and Law Enforcement Affairs
should designate and train a contracting officer’s representative for the narcotics affairs section
at Embassy Santo Domingo. (Action: INL)

Recommendation 7: Embassy Santo Domingo should cease participating in the immigration
attorney’s radio and television shows and explore neutral broadcast venues for disseminating its
consular information over the airwaves. (Action: Embassy Santo Domingo)

Recommendation 8: Embassy Santo Domingo should change its appointment schedule for
American citizens services to reduce the wait time for U.S. client interviews to no more than an
hour. (Action: Embassy Santo Domingo)

Recommendation 9: Embassy Santo Domingo should cease all fee services at the consular
agency in Puerto Plata until all monthly consular cash accounting (including daily accounting
sheets approved by the financial management officer) from January 2010 until February 2011 are
complete and the agency has established internal controls and standard operating procedures as
outlined in Department of State regulations to facilitate future accountability. (Action: Embassy
Santo Domingo)

Recommendation 10: Embassy Santo Domingo, in coordination with the Bureau of Consular
Affairs, should review its immigrant visa unit workflow procedures, stagger its immigrant visa
                                                51
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

appointment times to reduce waiting room congestion and interview wait times for its clients,
and ask the Bureau of Consular Affairs to instruct the National Visa Center to schedule cases
accordingly. (Action: Embassy Santo Domingo, in coordination with CA)

Recommendation 11: Embassy Santo Domingo should establish and implement procedures so
that the deputy chief of mission regularly reviews the visa issuances and refusals of the consul
general. (Action: Embassy Santo Domingo)

Recommendation 12: Embassy Santo Domingo should require that consular staff carefully
follow the definitions of nonimmigrant visa referrals as set out in Department of State
regulations, that all referrals clearly state the U.S. Government interest in the traveler, and that
the consular section refers only cases that are of clear, official consular interest. (Action:
Embassy Santo Domingo)

Recommendation 13: Embassy Santo Domingo should refrain from providing financial
assistance to the Santiago Binational Center until it gives a full accounting of all funds received
under grants provided by the embassy’s public affairs section for the acquisition of library books
and furnishings and the provision of English language training to disadvantaged youths. (Action:
Embassy Santo Domingo)

Recommendation 14: The Florida Regional Center, in coordination with Embassy Santo
Domingo and the Bureau of Western Hemisphere Affairs, should revise its memorandum of
agreement for human resources services and define the roles and responsibilities of the
management counselor, the locally employed staff, and the regional human resources officer for
such issues as hiring, retirements, terminations, local compensation plans, medical and life
insurance contracts, pensions, consolidation of administrative services, supervision of staff, and
the dissemination of technical information to mission staff. (Action: FRC, in coordination with
Embassy Santo Domingo and WHA)

Recommendation 15: The Florida Regional Center, in coordination with Embassy Santo
Domingo, should track and monitor the amount of time the management counselor spends each
month on human resources activities and evaluate whether some of the management counselor’s
human resources duties should be delegated to the regional human resources officer, the locally
employed staff, or the eligible family member human resources assistant, or could be performed
remotely at the Florida Regional Center. (Action: FRC, in coordination with Embassy Santo
Domingo)

Recommendation 16: The Florida Regional Center should evaluate whether its regional
human resources concept is adequate to meet the needs of the embassies and U.S. interest
sections serviced by regional human resources officers and determine whether additional
officers, more frequent visits of longer duration, innovative technology, and other resources are
needed to improve the performance of the regional human resources concept. (Action: FRC)

Recommendation 17: The Florida Regional Center, in coordination with Embassy Santo
Domingo, the Bureau of Western Hemisphere Affairs, and the Foreign Service Institute, should

                                                           52
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

provide customer service training for the human resources staff. (Action: FRC, in coordination
with Embassy Santo Domingo, WHA, and FSI)

Recommendation 18: Embassy Santo Domingo, in coordination with the Florida Regional
Center, should follow the same guidelines for preparing, tracking, and sending reminder notices
for eligible family member evaluations as for locally employed staff. (Action: Embassy Santo
Domingo, in coordination with FRC)

Recommendation 19: Embassy Santo Domingo, in coordination with the Florida Regional
Center, should establish and distribute procedures so that employee evaluation reports are
prepared for entry-level officers as prescribed by Department of State regulations. (Action:
Embassy Santo Domingo, in coordination with FRC)

Recommendation 20: Embassy Santo Domingo, in coordination with the Florida Regional
Center, should maintain current lists of entry-level officers, rating officers, and reviewing
officers and should establish a regular schedule for reminding these individuals of their
responsibilities, both with respect to specific individuals and in general. (Action: Embassy Santo
Domingo, in coordination with FRC)

Recommendation 21: The Florida Regional Center, in coordination with the Bureau of Human
Resources, should conduct a review to determine whether the percentage of family relationships
in Embassy Santo Domingo sections poses a risk to internal controls and, if so, take corrective
actions as needed. (Action: FRC, in coordination with DGHR)

Recommendation 22: The Florida Regional Center, in coordination with Embassy Santo
Domingo and the Bureau of Human Resources, should gather and review required
documentation on the Dominican Republic social security system and make a determination
regarding the eligibility of Embassy Santo Domingo’s locally employed staff to participate in the
Department of State’s defined contribution plan or a supplemental retirement plan. (Action:
FRC, in coordination with Embassy Santo Domingo and DGHR)

Recommendation 23: Embassy Santo Domingo should outsource its travel advance and
voucher payment function to the Department of State’s Financial Service Centers’ post support
units. (Action: Embassy Santo Domingo)

Recommendation 24: Embassy Santo Domingo should prohibit the use of official cellular
telephones and land lines for personal long distance calls and should issue a telephone usage
policy that outlines the permitted exceptions for usage of official cellular telephones and land
lines. (Action: Embassy Santo Domingo)

Recommendation 25: The Bureau of Resource Management should review the practice of
allowing the alternate cashier to take custody of the imprest fund for a set period one or more
times a year and determine whether it should become part of standard cashiering operating
procedures. (Action: RM)



                                                           53
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 26: Embassy Santo Domingo should establish a review process aimed at
validating work performed and supplies received for the maintenance of residences and motor
vehicles. (Action: Embassy Santo Domingo)

Recommendation 27: The Bureau of Administration should review the performance of the
ARIBA software and address its shortcomings to improve internal controls and increase
efficiency. (Action: A)

Recommendation 28: Embassy Santo Domingo should require all agencies to take delivery of
goods from the receiving office within 3 days. If this does not occur, the receiving office should
process the items and place them in the warehouse. (Action: Embassy Santo Domingo)

Recommendation 29: Embassy Santo Domingo should require the American employee who is
responsible for the housing section of the general services office to take part in lease negotiations
so that the U.S. Government receives a fair value. (Action: Embassy Santo Domingo)

Recommendation 30: Embassy Santo Domingo should review its standard communications
with newly assigned personnel so that the basis for housing assignments and the availability of
housing are clearly outlined. (Action: Embassy Santo Domingo)

Recommendation 31: Embassy Santo Domingo should create a document explaining in detail
the check-out procedure, employee responsibilities for damages, and the definition for normal
wear and tear and require employees to sign the document upon arrival, indicating that they
understand the policy. (Action: Embassy Santo Domingo)

Recommendation 32: The Bureau of Overseas Buildings Operations should include the
director of the U.S. Agency for International Development’s residence in its U.S. Government-
owned inventory. (Action: OBO)

Recommendation 33: Embassy Santo Domingo, in coordination with the Bureau of Overseas
Buildings Operations, should conclude negotiations to extend the current lease of the Marine
Security Guard residence. (Action: Embassy Santo Domingo, in coordination with OBO)

Recommendation 34: Embassy Santo Domingo should establish a facilities maintenance
review process to facilitate the satisfactory completion of work orders. (Action: Embassy Santo
Domingo)

Recommendation 35: Embassy Santo Domingo should establish a procedure so that all
equipment and supplies procured under blanket purchase agreements are received and
inventoried before being allocated to the maintenance staff. (Action: Embassy Santo Domingo)

Recommendation 36: Embassy Santo Domingo should establish a procedure that requires the
facilities maintenance officer to authorize services provided under a blanket purchase agreement
before they are entered into ARIBA. (Action: Embassy Santo Domingo)



                                                           54
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 37: Embassy Santo Domingo should establish a policy whereby a senior
locally employed staff supervisor reviews make-ready work and checks that work is performed
properly by either the landlord or embassy contractors and that the residential units are ready for
incoming personnel. (Action: Embassy Santo Domingo)

Recommendation 38: Embassy Santo Domingo, in coordination with the Bureau of Overseas
Buildings Operations, should obtain funding and contract for the immediate rewiring and
grounding of the public affairs facility. (Action: Embassy Santo Domingo, in coordination with
OBO)

Recommendation 39: Embassy Santo Domingo should establish and implement a procedure
to tag all residential fire extinguishers on an annual basis and to check that all smoke alarms are
functioning properly. (Action: Embassy Santo Domingo)

Recommendation 40: Embassy Santo Domingo should properly mark the emergency shutoff
systems and post instructions for the butane tanks, the gasoline pump, and the diesel pump.
Embassy Santo Domingo should also locate appropriate firefighting equipment nearby. (Action:
Embassy Santo Domingo)

Recommendation 41: Embassy Santo Domingo should install a camera and recording device
to monitor access to and use of the embassy gasoline pump. (Action: Embassy Santo Domingo)

Recommendation 42: Embassy Santo Domingo should install appropriate personnel cleanup
facilities adjacent to the diesel pump. (Action: Embassy Santo Domingo)

Recommendation 43: Embassy Santo Domingo should create a secondary emergency egress
from the ground floor of the warehouse. (Action: Embassy Santo Domingo)

Recommendation 44: Embassy Santo Domingo should install smoke alarms and fire
extinguishers in areas not currently covered in both the warehouse and the receiving facility.
(Action: Embassy Santo Domingo)

Recommendation 45: Embassy Santo Domingo should establish written procedures that
require motor pool staff to perform spot checks of garage repairs so that repairs are made
correctly and that new parts are used. (Action: Embassy Santo Domingo)

Recommendation 46: Embassy Santo Domingo should institute a formal review process for
determining responsibility for traffic accidents involving official vehicles. (Action: Embassy
Santo Domingo)

Recommendation 47: Embassy Santo Domingo should establish a policy that requires all
passengers riding in mission vehicles to fasten their seat belts and all motor pool drivers to
enforce this policy. (Action: Embassy Santo Domingo)

Recommendation 48: Embassy Santo Domingo should create a monthly report that tracks
mileage per gallon, maintenance history, and vehicle age and implement procedures for the

                                                           55
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

general services officer to regularly review this report for discrepancies. (Action: Embassy Santo
Domingo)

Recommendation 49: Embassy Santo Domingo should establish and implement procedures
requiring drivers to complete mileage logs and obtain signatures from passengers. The
procedures should include a requirement that the general services officer regularly spot check
logs for accuracy. (Action: Embassy Santo Domingo)

Recommendation 50: Embassy Santo Domingo should inventory and consolidate all
Dedicated Internet Networks and resister them with the Bureau of Information Resource
Management. (Action: Embassy Santo Domingo)

Recommendation 51: Embassy Santo Domingo should establish and document standard
operating procedures for Dedicated Internet Network management. (Action: Embassy Santo
Domingo)

Recommendation 52: Embassy Santo Domingo should conduct an inventory of the mission’s
laptop computers. (Action: Embassy Santo Domingo)

Recommendation 53: Embassy Santo Domingo should establish and implement a procedure
for appropriately encrypting Department of State laptops in order to safeguard the security and
integrity of the data stored on them. (Action: Embassy Santo Domingo)

Recommendation 54: Embassy Santo Domingo should create and implement a procedure for
renewing all airport tarmac credentials necessary for receipt of mail and pouch deliveries.
(Action: Embassy Santo Domingo)

Recommendation 55: Embassy Santo Domingo should address in its 2011 chief of mission
statement all the significant weaknesses in management controls identified in this report, along
with the steps the embassy has taken to resolve those vulnerabilities. (Action: Embassy Santo
Domingo)

Recommendation 56: Embassy Santo Domingo should conduct an embassy-wide
management controls review as described in Department of State regulations. (Action: Embassy
Santo Domingo)

Recommendation 57: Embassy Santo Domingo should enroll all personnel with management
control responsibilities in the Foreign Service Institute PA-164 distance learning Management
Controls course. (Action: Embassy Santo Domingo)

Recommendation 58: Embassy Santo Domingo should deliver the consular fees and reports
each Friday to the embassy Class B cashier before the end of the cashier’s business day. (Action:
Embassy Santo Domingo)




                                                           56
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Santo Domingo should review the existing pattern of
staff meetings to determine the optimum structure.

Informal Recommendation 2: Embassy Santo Domingo should develop a mentoring program
for entry-level officers, headed by the deputy chief of mission, which involves more interaction
with the front office and with officers in other sections and agencies.

Informal Recommendation 3: Embassy Santo Domingo should hold regular
economic/political section meetings that are structured to facilitate information sharing and
discussion.

Informal Recommendation 4: Embassy Santo Domingo should develop a training regimen for
mission personnel who create and administer record emails via the State Messaging and Archive
Retrieval Toolset.

Informal Recommendation 5: Embassy Santo Domingo should develop guidance for personal
services contractors that specifies which mission meetings they should attend and prohibits their
assuming supervisory or senior roles on the mission team or their replacing U.S. mission officers
in personal meetings with senior policy-level officials in the Dominican Government.

Informal Recommendation 6: Embassy Santo Domingo should expeditiously complete all
management assessment visit recommendations that the Bureau of International Narcotics and
Law Enforcement Affairs made in its January 2009 report.

Informal Recommendation 7: Embassy Santo Domingo should conduct regular consular
training sessions on customer service, stress management, and conflict resolution.

Informal Recommendation 8: Embassy Santo Domingo should establish a committee to
explore better ways to reach out to consular clients so that their visits to the embassy are positive
and professional experiences.

Informal Recommendation 9: Embassy Santo Domingo should assign a functioning ―
                                                                             One
FOB‖ encryption device to the consular agent in Puerto Plata.

Informal Recommendation 10: Embassy Santo Domingo should provide the consular agency
in Puerto Plata with a Department-approved cross-cut shredder.


                                                           57
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 11: Embassy Santo Domingo should assign entry-level officers to
oversee each of the five immigrant visa unit’s locally employed staff work teams.

Informal Recommendation 12: Embassy Santo Domingo should require an American officer
to be present in the immigrant visa work area whenever locally employed personnel are working
there.

Informal Recommendation 13: Embassy Santo Domingo should establish a special email
address by which the visa section could directly accept requests from emergency and high-
profile cases for expedited appointments and processing.

Informal Recommendation 14: Embassy Santo Domingo should implement procedures for the
Visas Viper committee to submit monthly reports no later than 10 days following the end of the
previous month.

Informal Recommendation 15: Embassy Santo Domingo should donate its book and digital
video disc collections to an appropriate educational institution under a grant that specifies the
terms of use.

Informal Recommendation 16: Embassy Santo Domingo should rewrite position descriptions
for the public affairs section webmaster, Information Resource Center assistant, and Information
Resource Center technician to provide a greater emphasis on social media and direct person-to-
person outreach.

Informal Recommendation 17: Embassy Santo Domingo should donate the books and
equipment originally intended for the Santiago Binational Center to an appropriate institution.

Informal Recommendation 18: Embassy Santo Domingo should determine what type of
personnel questions and issues should be sent to the regional human resources officer for her
action.

Informal Recommendation 19: Embassy Santo Domingo should set designated hours for
answering American and locally employed staff personnel-related questions.

Informal Recommendation 20: Embassy Santo Domingo should include in its new employee
orientation a session on the most frequently asked personnel questions.

Informal Recommendation 21: Embassy Santo Domingo should post on its intranet site a list
of the most frequently asked personnel questions, along with the answers.

Informal Recommendation 22: Embassy Santo Domingo should include customer service as
an element in human resources staff position descriptions and performance evaluations.

Informal Recommendation 23: Embassy Santo Domingo should conduct an annual retirement
seminar for locally employed staff that includes information about the local social security
system, medical insurance benefits, financial planning, and independent supplemental retirement
plans.
                                                58
             OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 24: Embassy Santo Domingo should store the nonexpendable
property of various agencies in clearly marked areas in the warehouse.

Informal Recommendation 25: Embassy Santo Domingo should investigate the possibility of
using a local bank to accept payments during warehouse sales.

Informal Recommendation 26: Embassy Santo Domingo should create and distribute mission-
wide a procedure for answering customer requests or taking messages when staff members are
not present in the Information Systems Center due to operational requirements.

Informal Recommendation 27: Embassy Santo Domingo should review the mission’s
telephone operator program and explore possible alternatives for handling the volume of
consular-related calls.

Informal Recommendation 28: Embassy Santo Domingo should establish and implement
controls on billing for the cellular telephone program.

Informal Recommendation 29: Embassy Santo Domingo should properly dispose of all old
server backup tapes according to Department of State standards.

Informal Recommendation 30: Embassy Santo Domingo should require that the consular
section immediately document and resolve all fiscal irregularities and keep all associated
documentation in the accountable consular officers’ files.




                                                          59
            OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                             SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




                                              60
OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                 SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Principal Officials

                                                                                       Name               Arrival Date
Ambassador                                                                 Raul H. Yzaguirre                     11/10
Deputy Chief of Mission                                                  Christopher Lambert                     08/09
Chiefs of Sections:
  Management                                                                Jennifer Haskell                    08/10
  Consular                                                               Mary Sue Conaway                       08/09
  Narcotics Affairs Section                                                   Arnold Sierra                     10/10
  Political/Economic                                                    Alexander Margulies                     08/09
  Public Affairs                                                               Todd Haskell                     08/10
  Regional Security                                                            Mark Bandik                      08/08
Other Agencies:
   Customs and Border Protection                                                  Lucia Foglia                  06/06
   Defense Attaché Office                                                     David O’Connell                   07/10
   Drug Enforcement Administration                                                 Peter Reilly                 07/07
  Foreign Agricultural Service                                                 Margaret Bauer                   08/08
  Foreign Commercial Service                                                     Robert Jones                   01/08
   Immigration and Customs
     Enforcement                                                         Donald Bruckschen                      07/08
  Legal Attaché                                                           George P. Quinlan                     03/09
  Military Assistance Advisory Group                                           Drew Bayliss                     08/10
  Peace Corps                                                                Romeo Massey                       08/05
  Technical Assistance Team (TAT)                                    Christine Mulder-Meira                     05/08
  U.S. Agency for International                                                                                 12/08
    Development                                                                   James Watson
  U.S. Citizenship and Immigration                                                                              07/05
    Services                                                              Anadina Hernandez
  U.S. Marshals                                                                    John Hall                    07/09




                                                         61
           OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                            SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




                                              62
OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                 SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Abbreviations
ACS                            American citizens services
AERA                           American Embassy Recreation Association
ARSO-I                         Assistant regional security officer for investigations
BNC                            Binational Center
BPA                            Blanket purchase agreement
CLO                            Community liaison office
DCM                            Deputy chief of mission
DIN                            Dedicated Internet Network
ECOPOL                         Economic and political section
EEO                            Equal Employment Opportunity
EFM                            Eligible family member
ELO                            Entry-level officer
FAH,                           Foreign Affairs Handbook
FAM                            Foreign Affairs Manual
FMO                            Financial management officer
FPU                            Fraud prevention unit
FRC                            Florida Regional Center
FS                             Foreign Service
GSO                            General services office
HR                             Human resources
ICASS                          International Cooperative Administrative Support Services
INVEST                         Internal vetting and security tracking
IRC                            Information Resource Center
ISC                            Information Systems Center
ISO                            Information systems officer
IV                             Immigrant visa
LE                             Locally employed
LSSS                           Local social security system
NAS                            Narcotics affairs section
NIV                            Nonimmigrant visa
OBO                            Bureau of Overseas Buildings Operations
PAO                            Public affairs officer
PAS                            Public affairs section
SMART                          State Messaging and Archive Retrieval Toolset
TIP                            Trafficking in persons
USAID                          U.S. Agency for International Development
WHA                            Bureau of Western Hemisphere Affairs




                                                       63
         OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                          SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




                                              64
OIG Report No. ISP-I-11-40A – Inspection of Embassy Santo Domingo, Dominican Republic – May 2011


                 SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219



   Cables to the Inspector General
  should be slugged ―OIG Channel‖
      to ensure confidentiality.



SENSITIVE BUT UNCLASSIFIED
